American Geophysical Union

      Washington, D.C.

Financial and Compliance Audit of
           Indirect Costs
        For the Year Ended
        December 31, 2002
                And
   Incurred Costs on 27 Awards
      From October 1, 1996
       to December 31, 2003



 National Science Foundation
Office of the Inspector General


       September 12, 2005
         OIG 05-1-011
                             TABLE OF CONTENTS
                                                                       Page

Section I      Introduction
               Background                                               1
               Objectives, Scope, and Methodology                       2
               Exit Conference                                          3

Section II     Findings and Recommendations
               Summary Results of Audit                                 5
               Unallowable Costs on NSF Awards                          6
               Internal Control Weaknesses                              8
               Indirect Cost Proposal Methodology                      13
               Adequate Internal Controls Not a Priority               16
               Recommendations, AGU Response, and Auditors’ Comments   18

Section III:   Financial Schedules
               Appendix A: Schedules of Direct Costs                   23
               Appendix B: Schedules of Indirect Costs                 40

Section IV: AGU Response                                               54


                                     ACRONYMS

AGU            American Geophysical Union
FCTR           Federal Cash Transactions Report
FY             Fiscal Year
G/L            General Ledger
HR             Human Resources
MOU            Memorandum of Understanding
NSF            National Science Foundation
GC-1           NSF’s Grant General Conditions
OIG            NSF Office of the Inspector General
OMB            U.S. Office of Management and Budget
START          SysTem for Analysis, Research, and Training




                                            i
  SECTION I

INTRODUCTION
Introduction

Background

       The American Geophysical Union (AGU), founded in 1919 by the National
Research Council,1 is a nonprofit scientific organization of more than 41,000 geophysicists
from 130 countries, whose activities focus on atmospheric, ocean, solid-Earth, hydrologic,
and space sciences. For the one-year period ending December 31, 2002, AGU had $28.9
million of total expenditures, of which $1.6 million was funded by Federal grants and
contracts. NSF grants represented $1.5 million, or 95 percent, of these Federal grants and
contracts. From October 1, 1996 through December 31, 2003, AGU claimed $7.6 million on
NSF awards of which $6.1 million was for the SysTem for Analysis, Research and Training
(START) program.

        Although AGU is legally responsible for management of NSF funds provided to
START, the START program receives programmatic guidance from three groups of the
International Council of Scientific Unions,2 namely the International Geosphere-Biosphere
Programme3, the International Human Dimensions Programme on global environmental
change, and the World Climate Research Programme. START’s mission is to create and
support regional networks of scientists and infrastructure in developing areas of the world,
especially in Asia and Africa.4 According to a Memorandum of Understanding (MOU)
between AGU and START, AGU is fiscally responsible for administratively supporting the
START program and START’s staff members are also AGU employees. All NSF funds in
support of the START program were awarded to AGU.

        Because NSF provides the predominant amount of Federal funding to AGU, it is the
cognizant agency for negotiating and approving AGU’s indirect cost rates on behalf of all
Federal agencies. The NSF Cost Analysis and Audit Resolution Branch requested the
Office of the Inspector General (OIG) conduct an audit of AGU’s FY 2002 indirect cost rate
proposal to determine the actual rate for that year and to facilitate negotiation of future
indirect cost rates. AGU's current indirect cost rate for Federal awards, effective January 1,
2000 until amended, is a predetermined rate of 38.58 percent. However, in its FY 2002
proposal AGU revised its indirect cost methodology, at the suggestion of NSF, resulting in a
separate indirect cost rates for each of AGU’s three major functions: Publications,
Meetings, and Outreach.


1
  The National Academy of Science (NAS) organized the Research Council in 1916 to realize NAS’s mission
of furthering knowledge and providing advice to the Government by fostering its association with other science
and technology organizations.
2
  The International Council of Scientific Unions, located in Paris France, is a French not-for-profit organization
comprised of 130 scientific bodies and unions supported by member dues.
3
  NSF OIG previously audited the International Geosphere-Biosphere Programme and reported the results in
Audit Report No. 03-2014, dated September 30, 2003.
4
  In 2003 START received $5 million of funding, of which NSF provided $1.6 million (33 percent) through
AGU. Other sources of funding included private foundations and foreign governmental organizations, such as
the Norwegian Agency for Development Cooperation and the Netherlands Ministry of Foreign Affairs.


                                                        1
Objectives, Scope, and Methodology

        We conducted an audit of AGU’s FY 2002 indirect cost rate proposal to assist NSF
in negotiating future indirect cost rates and in determining whether AGU had a reliable
methodology and processes for developing future indirect cost rate proposals. Our audit
objectives were to determine whether AGU complied with Federal requirements regarding
allowability, allocability, and reasonableness in computing its indirect cost proposal and to
evaluate the adequacy of AGU’s internal controls to administer, account for, and monitor
indirect cost charges to Federal awards. We also reviewed AGU’s grants management
practices and selected areas of cost on 27 NSF awards covering the period from October 1,
1996 to December 31, 2003, to determine whether AGU had adequate controls to
administer, account for, and monitor costs in accordance with Federal cost principles and
administrative requirements. Specifically, our audit focused on the areas of participant
support, subawards, travel, other direct costs, and cost sharing because these areas were
identified as high-risk areas during the survey.

        Our audit of the direct costs consisted of reconciling amounts claimed on the Federal
Cash Transactions Reports (FCTRs) submitted to NSF with the expenses in AGU’s general
ledger, reviewing AGU’s policies and procedures, interviewing key personnel at AGU and
NSF, and testing transactions for allowability under Federal grant requirements. We also
reviewed AGU’s indirect cost proposal to determine if it complied with Federal and NSF
requirements. We were on site from October 1, 2003 to October 17, 2003 and from
February 4, 2004 to March 5, 2004.

   We conducted the audit in accordance with the Comptroller General’s Government
Auditing Standards and included such tests of accounting records and other auditing
procedures that we considered necessary to address the review objectives.




                                              2
Exit Conference

        An exit conference was conducted July 12, 2004. We discussed our adjustments to
the indirect cost proposals and the internal control and compliance weaknesses we
identified. The following participated in the conference:

For the American Geophysical Union:
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXX
XXXXXXXXXXXXXX

For the NSF Office of the Inspector General
XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXX
XXXXXXXXXXXX
XXXXXXXXXXXXXXXXXX




                                           3
         SECTION II

FINDINGS AND RECOMMENDATIONS
SUMMARY OF AUDIT RESULTS

        We audited AGU’s grants management practices and selected areas of cost on 27
NSF awards covering the period from October 1, 1996 to December 31, 2003. Specifically,
our audit focused on the areas of participant support, subawards, travel, other direct costs,
and cost sharing. AGU claimed $7.6 million of direct costs on these awards during this
period of time, consisting mainly of salaries, participant support, and subaward costs. We
found that AGU needs to improve its management control structures. In particular, AGU
charged excess rent, spent participant support funds on other cost areas without NSF
approval, did not meet cost-sharing requirements, and claimed costs for amounts greater
than reported in its general ledger. As a result of these issues, AGU claimed $198,548 of
unallowable costs. We also noted a significant internal control deficiency. Specifically,
AGU inappropriately added accounting functions to the Human Resources department,
increasing the risk that payroll error or fraud could occur and not be detected. In addition,
we found that AGU did not adequately monitor its subawards, administer travel, manage
fixed assets, and provide control of purchases. If AGU does not address these issues, there
is increased risk that AGU could claim additional unallowable costs on existing and future
NSF awards.

        Additionally, at the request of NSF we audited AGU’s 2002 proposed indirect cost
rates to assist NSF in negotiating future indirect cost rates. Our audit found that AGU
correctly computed its indirect cost rates in most respects. However, AGU incorrectly
included $233,757 of unallowable costs in the indirect cost pools and mistakenly excluded
$73,268 of direct costs from the direct cost bases, thus overstating the three proposed
indirect cost rates by 0.91 to 1.45 percentage points. No questioned costs resulted from the
lower, audit-recommended rates, because AGU had an approved predetermined rate in
place, which does not allow for retroactive adjustments.5

        These issues occurred because AGU’s policies and procedures were outdated, not
being followed, or otherwise did not ensure NSF grants were managed in compliance with
OMB regulations and the terms and conditions of the grants. In addition, AGU staff did not
adequately understand the requirements for the administration of Federal and NSF awards.
AGU did not place priority on developing and implementing policies and procedures for
internal controls or on training its staff in Federal administrative requirements and cost
principles and NSF grant conditions.

         Summary of Auditee's Response

       In response to the draft audit report,6 AGU agreed with most of our internal control
recommendations; and of the $203,342 of questioned costs in the draft report, it agreed with
$44,832. However, AGU, disagreed that $149,441 was excess rent, because on the award

5
  Because AGU changed its accounting system in FY 2002 to use three different indirect cost rates instead of a
single rate, comparisons between the three audit-determined rates and the existing single predetermined rate
would not be relevant.
6
  A copy of AGU’s response to the draft audit report is included as Section IV of this report.


                                                      5
where it charged the rental costs,7 it limited its indirect costs to five percent of direct costs,
and thus overall recovered significantly less than its allowable indirect costs. In addition,
AGU disagreed with $9,070 of the questioned participant support costs because it felt it had
NSF permission to spend these funds for other purposes.

           Summary of Auditors' Comments

         Federal rules do not support AGU’s position that it is entitled to the excess rent. We
agree that charging fair market value rent plus five percent indirect costs on Award No.
GEO-9901551 resulted in less indirect costs overall on this award than the Government
would have paid had AGU charged actual rental costs plus its allowable indirect costs.
However, applicable cost principles state that an organization can only charge actual rental
costs to a related party; and we believe that AGU did charge the rental costs to a related
party. Additionally, it was not clear that AGU had NSF’s permission to spend all of the
questioned participant support costs, because one of the documents AGU cited as evidence
was an NSF Program Officer’s written approval for a no-cost extension on the applicable
award; but the approval did not explicitly permit shifting budgeted participant support costs
to other cost categories.

Unallowable Costs on NSF Awards

        Non-profit corporations that receive Federal grant funds should only claim costs that
are allowable, allocable, and reasonable as defined in OMB Circular A-122 - Cost Principles
for Non-Profit Organizations, and have financial and administrative systems in place that
meet the requirements listed in OMB Circular A-110 - Uniform Administrative
Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Nonprofit Organizations. Specifically, OMB Circular A-110 requires
that recipients’ financial management systems provide for accurate, current, and complete
disclosure of each Federally sponsored program and have accounting records supported by
source documentation. Organizations that receive NSF funds should also follow NSF’s
Grant General Conditions (GC-1). For example, the GC-1 directs that participant support
funds may not be spent on other cost areas without prior approval from NSF.

       Overall, we found that AGU properly segregated unallowable costs; however, there
were a few instances when AGU claimed award costs that were not allowable as defined in
A-122 or were contrary to the requirements of NSF’s GC-1. Specifically, AGU:

      x Claimed $149,441 of excessive rent costs;
      x Spent participant support funds of $24,734 on other cost categories without required
         prior approval from NSF;
      x Purchased items valued at $9,728 for employees’ personal use;
      x Claimed $6,372 of costs greater than reported in its general ledger; and




7
    AGU charged the rental costs on award No. GEO-9901551.


                                                    6
    x Did not satisfy any of its cost-sharing commitment of $9,341 on a closed NSF award,
       and was at risk of not meeting its cost-sharing commitment of $14,757 on one open
       NSF award.

Rental Charges

        OMB Circular A-122 states that rental costs under less than arms-length leases are
allowable only up to the amount that would be allowed had title to the property vested in the
organization paying the rent. The MOU between START and AGU clearly showed that
these two entities were related parties. Therefore, any rental costs charged by AGU for
START to occupy AGU facilities, should have been limited to the actual costs AGU
incurred and paid for this space. However, over a four-year period, AGU charged rent at the
same costs per square foot to the START group as to other non-related lessees in the
building and this rate was greater than the actual costs per square foot. As a result, we
questioned $149,441 of the total claimed rental costs, consisting of $142,325 of direct costs
and $7,116 of associated indirect costs. AGU claimed this overcharge on NSF award GEO-
9901551.8

Participant Support Funds Spent on Other Cost Areas

        According to NSF’s GC-1, Article 2, grantees are required to obtain prior written
approval from responsible NSF program officers to reallocate funds intended for participant
or trainee support. Furthermore, several award letters from NSF to AGU explicitly stated
AGU could not spend funds provided for participant support on other categories of expense
without the prior written approval of the responsible NSF program officer. We reviewed 21
closed awards that included approved budgeted participant support funds totaling
$1,888,491 and found that AGU spent some of these funds on other cost categories without
obtaining the required approval from NSF. Specifically, AGU correctly claimed participant
support costs of $742,519 on 14 awards, but we questioned $ 24,734 on eight NSF awards
because participant support funds were spent on other cost categories without approval from
NSF. In addition to the questioned direct costs, we questioned $172 of associated indirect
costs.9

         Additionally, because AGU did not separately track participant support costs as part
of its accounting system, it risks spending participant support funds on other cost categories
on three open NSF awards without prior NSF approval. Specifically, AGU had over
$200,000 of participant support funds remaining unspent on these awards but only about
$400,000 of total funds remaining to meet the other award requirements. Because AGU
incorrectly spent participant support funds on other cost areas on other awards, AGU needs
to ensure that it does not spend the participant support funds on other cost categories on the
three open awards without NSF’s prior approval.10

8
  See Appendix A-5, notes 3 and 4 of Notes to Explain Questioned Costs. Per the MOU of September 19, 1994
between AGU and START, indirect costs on START awards were capped at five percent (.05* 142,325
=7,116).
9
  See Appendix A, Notes to Explain Questioned Costs, numbers 1 and 4.
10
   See Appendix A, Notes to Explain Questioned Costs, number 1.


                                                   7
Goods or Services for Personal Use

       OMB Circular A-122 states that only costs of subscriptions to business, professional,
and technical periodicals are allowable. In addition, costs of goods or services for the
personal use of the organization’s employees are unallowable. However, our audit found
that AGU claimed costs of general circulation newspapers and magazines, canteen costs,
and bottled water directly on NSF award GEO-9901551. As a result, we questioned the total
claimed direct costs of $9,265 and the $463 of associated indirect costs.11

Claimed Award Amounts Different from General Ledger Amounts

        OMB Circular A-110 requires that all costs claimed on Federal awards be supported
by adequate documentation. We tested all 27 awards to determine if the claimed amounts to
NSF were supported by the recorded amounts in AGU’s general ledger and found that AGU
claimed $6,372 more than it recorded on two of the awards. Accordingly, we questioned
this reported difference.12

Cost-Sharing Procedures

        OMB Circular A-110 states that cost sharing must be verifiable from the recipient’s
records. This requirement is also included in NSF’s GC-1. AGU had total cost-sharing
requirements of $230,541 on five NSF awards. However, with one exception,13 AGU’s
accounting system did not track cost sharing by award, nor did AGU have any formal policy
or procedure in place to ensure cost-sharing requirements were met. As a result, AGU did
not provide any of the required $9,341 of cost sharing on one closed NSF award (DUE-
9612954), and has not yet contributed any of the required $14,757 of cost sharing on open
NSF award (EAR-0105317).14 Because AGU did not meet its cost-sharing requirement on
the closed award, we are questioning $8,101, which represents the impact to NSF for paying
more than its expected share of project costs on the award.15 In addition, because AGU does
not keep track of cost-sharing requirements and has not yet contributed cost sharing on the
open NSF award, we identified $14,757 of cost sharing to be at risk of not being met.

Internal Control Weaknesses

        Our assessment of AGU’s internal controls found that AGU had some procedures in
place to oversee its Federal awards. However, we identified one significant internal control
weakness related to segregation of duties and several other important grants management
and monitoring practices that AGU needs to improve in order for its financial management


11
   See Appendix A-5, and Notes to Explain Questioned Costs, numbers 3 and 4. The applicable indirect cost
rate on these direct costs was five percent.
12
   See Appendices A-3 and A-8.
13
   AGU tracked cost sharing on ATM-0242473 by setting up separate project codes for the NSF-funded and
cost-sharing portions of this award.
14
   See Appendix A, note 5, of Notes to Explain Questioned Costs.
15
   See Appendix A-3.


                                                     8
system to meet the requirements of OMB Circular A-110 and A-122. Each is discussed
below.

Segregation of Personnel and Accounting Functions

        OMB Circular A-110 requires all recipients of Federal funds to have adequate
internal controls for managing these funds. Segregation of duties is a basic internal
accounting control that enables organizations to prevent or detect irregularities or errors in
the ordinary course of business. In particular, the Committee of Sponsoring Organizations
(COSO) of the Treadway Commission specifies the common practice of segregating three
categories of duties, namely:16

     x Authorization of expenditures,
     x Custody of assets, and
     x Record keeping

        However, AGU combined in the Human Resources (HR) department the personnel
functions of adding new employees to the payroll system with the accounting functions of
processing payroll and issuing checks. In addition, the Accounting department was not able
to perform independent monthly reconciliations of the payroll transactions with its
accounting records because the HR department only provided payroll information to the
Accounting department in summary form, once a year at the end of the year. Therefore,
locating in one department the authority to add new employees and their salary level to the
payroll with the accounting function to record payroll disbursements, combined with the
lack of monthly independent reconciliations of payroll transactions with accounting records,
increased the risk that errors or payroll fraud could go undetected. For example, HR could
theoretically add a fictitious employee, establish a salary rate and pay that employee without
the Accounting department detecting the fraud. Based on these internal control weaknesses,
we increased our testing to verify that all employees being paid within the organization were
legitimate. We did not find any fictitious employees; however, relying solely on the
goodwill of one’s employees is not a substitute for having an adequate system of checks and
balances that reduces the risk of such errors or fraud. AGU’s A-133 auditors also reported
this control weakness in its most recent FY 2004 management letter report.




16
  The Committee of Sponsoring Organizations of the Treadway Commission, Enterprise Risk Management –
Integrated Framework, Executive Summary, September 2004, p. 63.


                                                  9
Subaward Management

        AGU claimed $1.5 million on 50 subawards under two NSF awards (GEO-0203288
and OCE-9911055), which equates to an average subaward value of $33,000. These
subawards were part of the START program and constituted over 99 percent of the total
subaward costs claimed by AGU and were primarily to assist in the establishment of
regional research networks in Asia and Africa. OMB and NSF procedures specify that grant
recipients are responsible for managing and monitoring the programmatic and administrative
performance of their subrecipients.17 However, AGU did not have adequate START
subaward agreements and did not ensure the START subawards were monitored in
accordance with Federal regulations.

        Inadequate Subaward Agreements

                NSF’s GC-1 specifies that primary grantees should flow down Federal cost
        principles to their subrecipients. In addition, AGU had a requirement in its policies
        and procedures that subrecipients should file monthly financial statements, and that
        subrecipient employees responsible for program compliance should receive training
        in administrative and programmatic compliance requirements. However, the START
        subaward agreements did not contain a requirement for subrecipients to follow the
        Federal cost principles,18 and none of these subaward agreements required
        subrecipients to file monthly financial statements, or receive training in grants
        administration.

        Monitoring Subrecipients

                The compliance supplement to OMB Circular A-13319 specifies the
        responsibilities of grantees for monitoring their subrecipients. For example, the
        circular advises grantees to monitor their subrecipients by reviewing financial and
        performance reports provided by the subrecipients, performing site visits at the
        subrecipients to review financial and programmatic records and observe operations,
        and maintaining regular contacts with them. AGU’s policies20 did incorporate all of
        these methods for subaward monitoring. In addition, START’s initial subaward
        agreements required that all subrecipients provide a “Final Financial Report” that
        “must include a list of expenditures…and actual receipts (or copies).”

             However, we found that AGU did not require the START staff to follow the
        AGU policies and procedures for monitoring subawards and there were no START-

17
   OMB Circular A-110, Subpart C, section .51 a. and NSF’s GC-1, article 8 a 3.
18
   AGU employees working on the START program did not change the subaward agreement even after an
amendment was issued for NSF award GEO-0203288 (Amendment Two of Award No. GEO-0203288), which
instructed AGU to flow down OMB cost principles for non-profit entities to the START subrecipients as noted
in NSF’s GC-1.
19
   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, Appendix B:
March 2003 Compliance Supplement
20
   Policies Pertaining to Federal Awards, pp. 4-6.


                                                    10
         specific policies for subaward monitoring. In our review of seven START
         subawards, which equated to $209,839 of the $1.5 million of claimed subaward
         costs, we found that the subrecipients did provide final reports identifying how the
         funds were spent, as required by the subaward agreements; but only three out of the
         seven provided vouchers and receipts to support the claimed costs. START staff
         said they reviewed subrecipients’ financial reports, but they did not document the
         results of the reviews; and it was not clear what review steps they performed. For
         example, it was not apparent if staff reviewed costs for allowability. In addition,
         although AGU employees in the START program did conduct some programmatic
         site visits of the subrecipients, they did not assess the adequacy of their financial
         management systems during those visits or provide adequate guidance on
         allowability of costs.

        The subawards were made to small organizations in developing areas of the world,
making oversight difficult. However, these types of foreign subawards also increased the
risk that NSF may be paying unallowable costs. This risk was further increased by the fact
that cash advances of 80 to 90 percent of the total subaward value were provided to the
subrecipients. Although AGU revised the language for START subaward agreements in
2003; and the revisions did clarify what supporting documentation was required from
subawardees,21 AGU still did not flow down the Federal cost principles to START
subawardees.

       AGU can improve its subaward monitoring by ensuring that all subawards,
especially the START subawards, include the Federal cost principles in the subaward
agreements, and by:

              x Enforcing its requirement of monthly financial reports or at least establishing
                 and implementing a requirement for periodic reports;
              x Enforcing the requirement that subrecipients provide actual receipts with
                 their submitted financial reports (for example, travel vouchers with
                 supporting documentation such as copies of airline tickets, and hotel and
                 meal receipts), which would enable AGU to determine whether claimed
                 costs are allowable according to Federal regulations;
              x Developing and implementing policies and procedures to review the
                 documentation provided for adequacy and allowability,
              x Ensuring that subrecipients have training in grants management, and
              x Conducting periodic site visits, or obtaining audits of the subrecipients, as
                 necessary, to assess whether their financial and administrative systems and
                 controls are adequate to ensure NSF funds are spent in accordance with
                 Federal requirements.


21
   The Terms of Agreement appended to START subawards in 2003 required the subrecipients to provide one
of the following in support of the costs claimed: 1) Receipts and airline ticket stubs for project-related travel,
or 2) An audit report on financial accounts, if available, or 3) A signed certification from the PI of the financial
statement, if the PI prepared it, or 4) If the financial statement is prepared by someone else in the institution,
that person must certify it.


                                                        11
Travel Procedures

        OMB Circular A-110 requires that Federal grantees exercise effective control over
all funds and provide adequate supporting documentation for all claimed costs. Pre-
approval of travel provides effective control by ensuring the travel is for authorized grant
purposes and the types of expenses and amount of funds are allowable and reasonable.
However, AGU did not approve travel orders or have procedures to review requests for
travel cost reimbursements, thus increasing the risk that NSF would pay unreasonable and
unallowable costs. AGU’s Director of Finance told us that the Accounting department had a
“rule of thumb” that all expenses over $25 needed a receipt, but this guidance was not in
AGU’s policies and procedures or indicated on the travel reimbursement forms. Without
clear requirements specified by AGU management, AGU did not obtain documentary
support for travel costs and therefore had little or no assurance that the almost $1.7 million
of claimed travel costs were allowable, reasonable, and allocable.

Management of Fixed Assets

         OMB Circular A-110 requires awardees to conduct a physical inventory of
equipment purchased with Federal funds and to reconcile the results with inventory records
at least once every two years. In addition, AGU’s Purchasing Guidelines state that all fixed
assets should be on the asset inventory list, individual assets valued at over $1,000 should be
capitalized, and the Facilities Department should update inventory records as items are
received. However, we found that AGU had not conducted a physical inventory or
reconciled its inventory with accounting records in almost 10 years. In order to verify the
accuracy of the fixed asset listing, we selected a sample of 42 assets with a total book value
of $437,909, from the total of 5,258 assets with a listed book value of $2 million on AGU’s
fixed asset list. None of the items selected for review were purchased with NSF funds.
Nevertheless, AGU could not locate nine items, with a listed value of $47,203, or 11 percent
of the total value of the sample.

        In addition, contrary to AGU’s policy, assets purchased with NSF funds were not
added to the fixed asset listing. This occurred because START staff did not use asset-
tracking forms for equipment purchases. Specifically, we found that AGU purchased nine
assets for the START program, totaling $19,540, that met AGU’s $1,000 threshold for fixed
assets, but none of these were capitalized or listed on AGU’s inventory records. As a result
of not conducting bi-annual physical inventories or including assets purchased with NSF
funds on the inventory list, AGU had inaccurate and incomplete inventory records, reducing
NSF’s assurance that AGU adequately safeguarded its fixed assets. Further, the replacement
of items that are lost or stolen could result in an increase to the indirect cost rates.

       Purchasing Controls

        OMB Circular A-110 requires that recipients’ financial management systems provide
effective control over and accountability for all funds, property, and other assets. AGU’s
Purchasing Guidelines did provide for effective control in some respects; for example, they
required that purchases of goods and services be supported by purchase orders. However,



                                              12
AGU did not always enforce this policy. In addition, the guidelines were many years out of
date, and did not include any policies and procedures for purchases on credit accounts.22 We
found that the START program personnel did not use purchase orders or ensure assets
purchased with NSF funds were added to the inventory list, resulting in purchases of almost
$20,000 of equipment and computers with NSF funds without receiving the required
approval of the AGU Director of Information Services or Administration Manager.
Additionally, other AGU managers were either not aware of or following the purchasing
guidelines. For example, one manager had an open account with an office supply
warehouse and made purchases without any purchase orders. If AGU does not enforce the
procurement policies or keep them up to date, there is an increased risk of unauthorized
purchases and of unreasonable, unallowable, or unallocable charges to NSF.

Indirect Cost Proposal Methodology

        Our audit found that, for the most part, AGU correctly calculated its FY 2002
indirect cost rates. However, AGU needs to improve its understanding of OMB Circular A-
110 and the cost principles in OMB Circular A-122, specifically those sections that require
supporting all claimed costs with documentation, segregating unallowable costs, identifying
unreasonable costs, classifying costs correctly as either direct or indirect costs, and
offsetting expenses with related revenues. As a result of this inadequate understanding,
AGU included $233,757 of unallowable costs in its indirect cost pools, and understated its
direct cost base by $73,268, thereby causing AGU’s proposed three indirect cost rates for
publications, meetings, and outreach to be overstated by 1.15 percent, 0.91 percent, and 1.45
percent respectively. These issues are discussed below, and in more detail in Appendices B-
1 through B-4 to this report.

Unsupported Costs ($86,195)

        OMB Circular A-110 requires that recipients of Federal funds have financial
management systems that provide accounting records supported by source documentation.
Because of inadequate source documentation, we recommended eliminating $86,195 of
costs included in the indirect cost pools:

         x $68,412 of expenses were supported only by credit card statements, which did
            not provide sufficient details on the items purchased to determine if the costs
            were allowable, allocable, and reasonable for NSF’s awards;23
         x $17,783 of expenses allocated to the Publications division, Outreach division,
            and Administrative Allocation indirect cost pools were eliminated because AGU
            could not provide sufficient supporting documentation that these costs benefited
            NSF.24




22
   The purchasing policies were typewritten and we were unable to determine how old they were.
23
   See Appendix B, Notes to Explain Adjustments, note 2.
24
   See Appendix B, Notes to Explain Adjustments, number 9.


                                                    13
Unallowable Costs ($34,205)

       OMB Circular A-122 designates costs such as alcohol, donations to other
organizations, entertainment, and membership dues to other organizations without prior
approval from the cognizant agency, as unallowable. In addition, the circular also requires
consistent treatment of incurred costs. AGU erroneously included $34,205 of such
unallowable costs in its indirect cost pool:

     x $15,485 of alcoholic beverages,
     x $10,500 of donations to other organizations,
     x $5,235 of holiday party expenses, which we consider entertainment costs,
     x $1,850 of membership dues for a civic organization, for which AGU did not obtain
        the required prior approval from NSF, and
     x $1,135 of floral costs that AGU failed to exclude when it excluded other similar
        floral costs.

Excessive and Unreasonable Costs ($24,469)

       To be claimed as an allowable cost on a Federal award, direct and indirect costs must
be reasonable. OMB Circular A-122 defines reasonable costs as those that do not exceed
what a prudent person would incur under the prevailing circumstances at the time. In cases
where unreasonable costs are claimed, AGU can choose to pay for them; however, they
should be excluded from indirect costs charged to the Federal awards. We found that AGU
included $24,469 of excessive and unreasonable costs in its indirect cost pools, as follows:

     x $14,452 of excessive group meal costs, including $12,933 paid to cater a dinner at
        AGU’s fall 2002 meeting,25
     x $9,236 of local lodging costs incurred by AGU employees while not in travel status,
        including $5,440 paid for eight employees for lodging at a conference facility located
        within AGU’s local commuting area,26
     x $630 of claimed lodging costs significantly in excess of the allowable Federal per
        diem rate. For example, an AGU employee claimed $223 per night in a city where
        the Federal per diem for lodging was $91 a night, without any justification for
        claiming the higher rate,
     x $151 of unreasonable local meal costs incurred by AGU employees, such as lunches
        for employees attending training classes in the local commuting area.

Misclassified Costs ($73,268)

        According to OMB Circular A-122, expenses of activities performed primarily as a
service to members, clients, or the public must be treated as direct costs when significant
and necessary to the organization’s mission, and thus receive their fair share of indirect
25
   The catered meal cost $81.81 per person and we questioned $9,271 of these costs as excessive. Also, we
removed unallowable alcohol costs of $3,622 that were claimed by AGU as part of the same event. See
Appendix B, Notes to Explain Adjustments, number 4 a.
26
   See NSF Travel, “What is local travel?” at http://www.inside.nsf.gov/travel/local.htm.


                                                     14
costs.27 AGU erroneously charged $70,575 of expenses to AGU’s Society Activities
division’s indirect cost pool instead of the direct cost base. These expenses included costs
of services to members and services that supported AGU’s mission and therefore should not
be allocated to the Federal Government through the indirect cost rates. AGU also
incorrectly charged $2,693 of fellowship costs to the indirect cost pool when they should
also have been included in the direct cost base because they did not benefit the entire
organization.

Expenses Not Credited With Offsetting Revenues ($15,620)

        OMB Circular A-122 states that credits are reductions of expenditures that offset or
reduce expenses allocable to awards, and that credits received by an organization related to
allowable costs shall be used to offset charges to the Federal Government.28 AGU correctly
included costs of employees’ fitness club memberships in the indirect cost pool but did not
offset the claimed expenses with $15,620 that was deducted from employees’ payroll to pay
for some of the costs of these memberships.

        As a result of the compliance deficiencies above, AGU overstated its FY 2002
indirect cost pools by $233,757 and understated its direct cost bases by $73,268.
Consequently, as shown below, AGU’s proposed rates in the three divisions were from 0.91
percentage points to 1.45 percentage points higher than the audited rates. No questioned
costs resulted from the lower, audit-recommended rates, because AGU had an approved
predetermined rate in place, which does not allow for retroactive adjustments.29


                                             Proposed       Recommended
           Division                            Rate             Rate              Difference
           Publications Division              36.44%            35.29%               1.15%
           Meetings Division                   29.13            28.22                0.91
           Outreach Division                   39.09            37.64                1.45
           Administrative Allocation           21.21            20.33                0.88




27
   OMB Circular A-122, Attachment A, section B 4.
28
   OMB Circular A-122, Attachment A, section A 5 a.
29
   The effective dates for AGU’s approved predetermined indirect cost rate was from 1/1/2000 until amended.
However, in FY 2002 AGU changed to a system with three indirect cost rates, making a comparison between
the three audit-determined rates and the single predetermined rate unfeasible.


                                                    15
Adequate Internal Controls Not a Priority

        These deficiencies occurred because AGU lacked an adequate administrative and
financial management control structure to manage large Federal awards. The financial
structure in place was informal in nature, trusting more in the integrity of the personnel than
in strong and current internal control processes and procedures. AGU did not place a
priority on having or implementing current, accurate, and complete policies and procedures
or on training its staff in Federal administrative requirements and cost principles as
evidenced by the following:

Segregation of Duties

        AGU outsourced its payroll function until October 2000, when it decided to do its
own payroll, since it had recently installed a new accounting system. At the time the
function was brought back in, AGU decided to add these payroll functions to the HR
department. AGU management did not seem concerned that payroll functions needed to be
kept separate from HR functions. Additionally, AGU management did not have the
Accounting department conduct independent monthly reconciliations because it felt it was
sufficient if HR provided summary payroll data once a year at the end of the year and
because it trusted HR to handle both functions. Following the 2003 OMB Circular A-133
audit, the independent audit firm raised this issue in a management letter to AGU; but as of
the end of our audit in December 2003, AGU chose not to follow the audit firm’s
recommendation to institute monthly independent reconciliations because of the concern
that sensitive payroll data would not remain confidential if anyone outside of HR had access
to the salary information.

NSF Awards For the START Program

        AGU did not have formal policies and procedures in place for NSF awards
supporting the START program because AGU’s Executive Director had a long-standing
relationship with the Director of the START Program and thought an informal delegation of
fiscal and administrative responsibilities to the AGU employees in the START program was
sufficient to ensure adequate oversight of the NSF awards. However, personnel in the
START program lacked an adequate understanding of Federal and NSF financial
requirements. The informality between AGU and START led to questioned costs and
inadequate subaward management. Specifically, regarding START subaward management,
the START staff did not flow down the Federal cost principles because they felt the
requirements in their agreements were sufficient, did not include the monthly reporting
requirement in the subaward agreements because they deemed it too onerous, or require
subrecipients to get grant training because they felt it was not cost effective.

Training in Federal Requirements

        AGU’s staff lacked adequate training in Federal administrative requirements and
cost principles. Our audit found that AGU’s staff was not aware that several NSF awards
had cost-sharing requirements and that Principal Investigators had shifted budgeted



                                              16
participant support costs to other cost categories without prior approval from NSF. In
addition, we noted that AGU’s accounting system did not allow for actual costs to be readily
compared to budgeted costs by NSF budget category thereby making it difficult to detect if
budgeted costs were shifted improperly between categories.

Policies and Procedures

       AGU management did not adequately stress the importance of establishing,
maintaining, and implementing policies and procedures and keeping them current.
Specifically:

           x Policies and procedures did not require travelers to have travel orders, did not
              define when or what type of supporting documentation was required for
              reimbursement of travel expenses, and did not establish criteria to help ensure
              only reasonable travel costs were charged to Federal awards.
           x Policies and procedures for property management were only in draft form and
              its provisions requiring physical inventories every two years or updating of
              inventory listings for missing or obsolete items had not been implemented.
           x Procurement procedures did not address purchasing equipment via a
              revolving credit account or credit card, which led to items being procured
              without required purchase orders, contrary to AGU’s purchasing guidelines.
           x START staff was not required to follow AGU’s purchasing guidelines,
              resulting in assets being purchased but not being added to the inventory list.




                                             17
Recommendations

       To address the internal control weaknesses and compliance deficiencies in AGUs
preparation of indirect cost rate proposals and management of Federal funds, we recommend
that NSF’s Division of Institution and Award Support and Division of Grants and
Agreements require AGU to:

   1) Reimburse NSF for the questioned costs of $198,548, which includes $8,101 of
      NSF’s excess share of project costs and $7,751 of indirect costs associated with the
      questioned direct costs.

              AGU Response

              AGU accepts $44,832 of $203,342 questioned costs in the draft report, but
              disagrees with the remaining $158,510, as follows:

              x $149,441 of excess direct and associated indirect rent costs charged to
                 START, for which AGU makes these arguments: 1) AGU believes that
                 START is not a related party and is allowed to charge for use of its space
                 above actual costs. The only relationship between AGU and START is
                 the MOU and common scientific interests; 2) AGU did not charge their
                 full indirect rate and only charged five percent indirect costs on START
                 awards, and therefore should be allowed to charge market-price rent; and
                 3) There is a substantial cost savings to the Government from AGU
                 charging fair market value rent plus five percent indirect costs on START
                 awards in lieu of charging the full indirect cost rate.
              x AGU received written permission from the cognizant NSF program
                 officer to use the $4,274 of participant support funds on EAR-9911107
                 for a fellowship.
              x AGU recorded in the general ledger $4,796 of participant support costs
                 for graduate-student travel on ATM-0322531.

              Auditors’ Comments

              Although AGU and START remain independent entities, we believe that the
              MOU dated September 19, 1994 established an agency relationship between
              them and thus clearly shows that AGU and START are related parties:
              “AGU will provide administrative support services for the International
              START Secretariat” and “the staff of the International START Secretariat
              shall be treated in a manner equivalent to other AGU staff.” OMB Circular
              A-122 states that rental costs under less than arms-length leases are allowable
              only up to the amount that would be allowed had title to the property vested
              in the organization paying the rent. It does not make an allowance for AGU
              charging less than the allowed overhead costs. Therefore, we reaffirm our
              recommendation.


                                            18
           The documentation provided as support for AGU’s claim that it had
           permission to reallocate participant support costs of $4,274 on
           EAR-9911107, was an approval for a no-cost extension and did not
           specifically permit the reallocation of participant support funds. Therefore,
           we reaffirm our recommendation.

           We accept the additional clarification provide by AGU regarding the
           questioned participant support costs of $4,796 on ATM-0139033, and have
           removed these questioned costs accordingly.

2) Segregate the personnel activities from payroll and check-writing functions, or at a
   minimum, ensure timely reconciliations by providing detailed payroll information
   monthly to the Accounting department or some other independent entity.

           AGU Response

           Although AGU does not agree with our recommendation to segregate payroll
           and check-writing functions, it agrees with our alternative recommendation to
           ensure timely reconciliations by providing detailed payroll information each
           month to the Accounting department, and states that the Accounting
           department is currently reconciling the payroll account monthly.

           Auditors’ Comments

           AGU’s comment is responsive, however, we believe segregating the
           functions of human resources from payroll and check-writing activities is still
           the optimal solution. Therefore, we reaffirm our recommendation.

3) Revise and implement policies and procedures for management of subawards to
   ensure subrecipients, particularly those for START awards, follow Federal cost
   principles and provide actual receipts for claimed costs.

           AGU Response

           AGU has agreed with our recommendations regarding subawards.

           Auditor’s Comments

           No further comment is necessary.




                                         19
4) Develop and implement policies and procedures that ensure required cost sharing is
   tracked and met and that budgeted participant support costs are not shifted without
   prior NSF approval.

           AGU Response

           AGU states that it is currently implementing measures to ensure that the
           existing policy regarding the tracking of cost sharing is being implemented
           and that it has established a separate account number for participant support
           costs incurred under Federal awards so that it can track budgeted and actual
           participant support costs within the accounting system.

           Auditors’ Comments

           No further comment is necessary.

5) Revise and implement the policies and procedures for administering travel,
   managing inventory, and procuring equipment in accordance with Federal
   requirements.

           AGU Response

           AGU states that it is currently working on policies and procedures for travel,
           inventory, and procurement to address the findings in this audit report.

           Auditors’ Comments

           No further comment is necessary.

6) Train all staff involved in grants management or accounting in Federal
   administrative grant requirements and cost principles on a continuing and periodic
   basis.

           AGU Response

           AGU is implementing this recommendation.

           Auditors’ Comments

           No further response is necessary.

7) Revise its proposed indirect cost rates based on the audit results.




                                          20
              AGU Response

              AGU proposes to withdraw its FY 2002 indirect cost proposal. Instead, it
              plans to submit a new proposal with 2004 financial information, using the
              simplified method for a single unified rate. In addition, AGU strongly
              disagrees with our position that the costs associated with Committee on
              International Participation should be treated as direct costs instead of indirect
              costs, as it states that the costs are mostly administrative support. AGU also
              disagrees with the exclusion of $68,449 of expenses supported only by credit
              card bill as it states that all of these expenses are recorded with detailed
              receipts when available.

              Auditors’ Comments

              Regarding AGU’s plan to submit a new proposal using FY 2004 financial
              information, AGU is eligible to use the simplified method for a single unified
              rate as defined by OMB Circular A-122, which states that the simplified
              allocation method may be used where the level of Federal awards to an
              organization is relatively small. As for the comment that it would like to
              withdraw its 2002 proposal, which means that the predetermined rate of
              38.58 percent would continue in effect until AGU and NSF negotiate a new
              indirect cost rate, this course of action should be addressed during audit
              resolution with the NSF Division of Institution and Award Support.

              With respect to AGU’s comments on Committee on International
              Participation, we disagree with AGU’s position that the Committee on
              International Participation should be treated as indirect costs rather than as
              direct costs. AGU states that it is mostly administrative support, which
              contradicts AGU’s classification of this committee in its website, which
              states that this committee under the program category instead of the
              administrative category. Therefore, we continue to assert that this
              committee’s costs should be treated as direct costs instead of indirect costs.

              Regarding AGU’s comments on exclusion of $68,449 of indirect expenses
              supported only by credit card bills, we disagree with AGU’s position because
              AGU did not provide detailed receipts supporting a majority of the expenses
              on credit card statements during the fieldwork. In cases when AGU provided
              detailed receipts (i.e. receipt from vendors) for a few of the expenses
              recorded on the credit card statements, we did not question those expenses in
              our report.

8) Obtain a corrective action plan from AGU addressing each report recommendation and
   perform an on-site visit promptly to verify that the corrective actions have been taken
   and are effective to correct the control deficiencies.




                                             21
AGU Response and Auditor’s Comments

OIG management added this recommendation after the issuance of the
official draft report; thus AGU did not have a chance to comment on it.




                              22
    SECTION III

FINANCIAL SCHEDULES




        23
                                                                             Appendix A-1

           Summary Schedule of National Science Foundation Award Costs for
                           American Geophysical Union

                 For the Period October 1, 1996 through September 30, 2003
                                            Final

                               Approved           Recorded         Questioned        Ref
     Cost Category              Budget             Costs             Costs
XXXXXXXXXX                      XXXXXX             XXXXXX                  X
XXXXXXXXX                        XXXXX           XXXXXXXX                  X
XXXXXXXXXXX                      XXXXX           XXXXXXXX                  X
XXXX                             XXXXX           XXXXXXXX                  X
XXXXXXXXXXX                        XXXX          XXXXXXXX           XXXXXX
XXXXXXXXXXXX                     XXXXX             XXXXXX                  X
XXXXXXXXXXXX                       XXXX            XXXXXX                  X
XXXXXXXXXXX                      XXXXX             XXXXXX                  X
XXXXXXXXXX                            XX                   X               X
XXXXXX                           XXXXX             XXXXXX                  X
XXXX                             XXXXX             XXXXXX           XXXXXX
    Total Direct Costs          8,915,721          7,722,729         176,324

Indirect Costs                    579,476             435,872            7,751
                   Totals
                                9,495,197           8,158,601          184,075

Difference between
Claimed Costs and
Recorded Costs                                      (499,746)            6,372
  Total Costs per FCTR                              7,658,855 *                  *

Total Questioned
Incurred Costs                                                        $190,447

Cost Sharing                    $ 230,541                              $ 8,101

Total Questioned Costs                                                $198,548       A-2


* Agrees with cumulative net disbursements reported on the FCTRs for the quarter ended
  December 31, 2003.




                                            24
                                                                    Appendix A-2

                  National Science Foundation Grants
                              Awarded to
                    American Geophysical Union

               Summary of Awards With Questioned Costs


                  Amount           Claimed             Questioned
Award Number      Awarded       Costs per FCTR           Costs         Appendix
DUE-9614954       $   93,551             $92,223        $ 19,024         A-3
OCE-9729933        1,074,681           1,065,979            3,620        A-4
GEO-9901551        3,493,062           3,244,186          159,169        A-5
ATM-9908640            7,000               7,000            6,650        A-6
EAR-9911107           23,919              23,919            4,274        A-7
ATM-0089582          495,706             242,894            4,160        A-8
ATM-0118057           15,000              10,583               32        A-9
OCE-0129558           20,000              19,660              334        A-10
ATM-0139033           18,000                 924              924        A-11
ATM-0322531            8,200               5,155              361        A-12
                  $5,249,119          $4,712,523         $198,548




                                 25
                                                                              Appendix A-3

                 National Science Foundation Award Number DUE-9614954
                                       Awarded to
                                American Geophysical Union

                                  Schedule of Award Costs
                 For the Period October 1, 1996 through September 30, 2000
                                            Final

                               Approved            Recorded          Questioned        Reference
     Cost Category              Budget              Costs              Costs            to Notes
XXXXXXXXXX                     XXXXXX                XXXXXX                XXX
XXXXXXXXX                       XXXXX                  XXXX                  XX
XXXXXXXXXXX                     XXXXX                 XXXXX                  XX
XXXXXXXXX                       XXXXX                 XXXXX                  XX
XXXXXXXX                         XXXX                     XX                 XX
XXXXXXXXXXX                     XXXXX                 XXXXX               XXXX                 XX
XXXXXXXXXXXX                     XXXX                  XXXX                  XX
XXXXXXXXXXXX                    XXXXX                 XXXXX                  XX
XXXXXXXXXXX                         XX                    XX                 XX
XXXXXXXXXX                      XXXXX                  XXXX                  XX
XXXXXX                          XXXXX                 XXXXX                  XX
XXXX                           XXXXXX                XXXXXX                  XX
    Total Direct Costs          $81,016               $77,477            $ 8,711

Indirect Costs                     12,535               12,534                 0
                   Totals         $93,551              $90,011           $ 8,711

Claimed Costs in Excess
of Recorded Costs                                        2,212             2,212      2
   Total Costs per FCTR                                $92,223 *

Total Questioned
Incurred Costs                                                           $10,923

Cost Sharing                      $ 9,341              $      0          $ 8,101      5

Total Questioned Costs                                                  $ 19,024


* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.


                                             26
                                                                              Appendix A-4

                 National Science Foundation Award Number OCE-9729933
                                       Awarded to
                               American Geophysical Union

                                  Schedule of Award Costs
                  For the Period September 15, 1997 through May 31, 2001
                                           Final

                               Approved            Recorded          Questioned        Reference
     Cost Category              Budget              Costs              Costs            to Notes
XXXXXXXXXX                     XXXXXX               XXXXXX               XXX
XXXXXXXXX                        XXXXX                  XXXX              XX
XXXXXXXXXXX                      XXXXX                XXXXX               XX
XXXXXXXXX                        XXXXX                XXXXX               XX
XXXXXXXX                           XXXX                    XX             XX
XXXXXXXXXXX                      XXXXX                XXXXX             XXXX                   XX
XXXXXXXXXXXX                       XXXX                 XXXX              XX
XXXXXXXXXXXX                     XXXXX                XXXXX               XX
XXXXXXXXXXX                           XX                   XX             XX
XXXXXXXXXX                       XXXXX                  XXXX              XX
XXXXXX                           XXXXX                XXXXX               XX
XXXX                           XXXXXX               XXXXXX                XX
    Total Direct Costs         $1,021,125           $1,024,103        $ 3,448

Indirect Costs                     53,556               50,880               172      4
                   Totals      $1,074,681           $1,074,983        $    3,620

Recorded Costs in
Excess of Claimed Costs                                 (9,004)
  Total Costs per FCTR                              $1,065,979 *




* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             27
                                                                              Appendix A-5

                 National Science Foundation Award Number GEO-9901551
                                       Awarded to
                                American Geophysical Union

                                  Schedule of Award Costs
                  For the Period April 15, 1999 through December 31, 2003
                                            Interim

                               Approved            Recorded          Questioned        Reference
     Cost Category              Budget              Costs              Costs            to Notes
XXXXXXXXXX                     XXXXXX               XXXXXX                 XXX
XXXXXXXXX                       XXXXX                    XXX                 XX
XXXXXXXXXXX                       XXXX                  XXXX                 XX
XXXXXXXXX                       XXXXX                 XXXXX                  XX
XXXXXXXX                           XXX                     XX                XX
XXXXXXXXXXX                     XXXXX                 XXXXX               XXXX                 XX
XXXXXXXXXXXX                      XXXX                  XXXX                 XX
XXXXXXXXXXXX                    XXXXX                    XXX               XXX
XXXXXXXXXXX                          XX                    XX             XXXX
XXXXXXXXXX                      XXXXX                    XXX                 XX
XXXXXX                            XXXX                  XXXX                 XX                X
XXXX                           XXXXXX               XXXXXX                   XX
    Total Direct Costs         3,296,327            $3,396,571          $151,590

Indirect Costs                    196,735              154,483             7,579      4
                 Subtotal      $3,493,062           $3,551,054          $159,169

Recorded Costs in
Excess of Claimed Costs                              (306,868)
  Total Costs per FCTR                              $3,244,186 *




* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             28
                                                                              Appendix A-6

                 National Science Foundation Award Number ATM-9908640
                                        Awarded to
                                American Geophysical Union

                                 Schedule of Award Costs
                     For the Period July 1, 1999 through June 30, 2000
                                            Final

                               Approved            Recorded          Questioned        Reference
     Cost Category              Budget              Costs              Costs            to Notes
XXXXXXXXXX                      XXXXX                XXXXXX                XXX
XXXXXXXXX                       XXXXX                  XXXX                XXX
XXXXXXXXXXX                     XXXXX                  XXXX                  XX
XXXXXXXXX                       XXXXX                 XXXXX                  XX
XXXXXXXX                          XXX                     XX                 XX
XXXXXXXXXXX                     XXXXX                 XXXXX               XXXX                 XX
XXXXXXXXXXXX                    XXXXX                     XX              XXXX
XXXXXXXXXXXX                        XX               X XXX                 XXX
XXXXXXXXXXX                         XX                    XX              XXXX
XXXXXXXXXX                      XXXXX                   XXX                XXX
XXXXXX                            XXX                 XXXXX                  XX
XXXX                           XXXXXX                XXXXXX                  XX
    Total Direct Costs           $6,650               $55,580            $ 6,650

Indirect Costs                        350                  350                 0      **
                   Totals          $7,000              $55,950           $ 6,650

Recorded Costs in
Excess of Claimed Costs                                (48,930)
  Total Costs per FCTR                                  $ 7,000 *




*     Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
      December 31, 2003.

**    Indirect costs were not questioned as the amount was fixed and not a percentage of the
      total direct costs.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             29
                                                                              Appendix A-7

                  National Science Foundation Award Number EAR-9911107
                                        Awarded to
                                American Geophysical Union

                                   Schedule of Award Costs
                 For the Period December 15, 1999 through November 30, 2001
                                            Final

                                Approved           Recorded          Questioned        Reference
     Cost Category               Budget             Costs              Costs            to Notes
XXXXXXXXXX                      XXXXXX                   XXX               XXX
XXXXXXXXX                          XXX                     XX                XX
XXXXXXXXXXX                          XX                    XX                XX
XXXXXXXXX                         XXXX                   XXX                 XX
XXXXXXXX                             XX                    XX                XX
XXXXXXXXXXX                       XXXX                  XXXX              XXXX        XX
XXXXXXXXXXXX                         XX                    XX                XX
XXXXXXXXXXXX                      XXXX                     XX                XX
XXXXXXXXXXX                       XXXX                  XXXX                 XX
XXXXXXXXXX                           XX                    XX                XX
XXXXXX                               XX                 XXXX                 XX
XXXX                              XXXX                  XXXX                 XX
    Total Direct Costs           $19,945               $20,368           $ 4,274

Indirect Costs                      3,974                3,987                 0
                    Totals        $23,919              $24,355           $ 4,274

Recorded Costs in
Excess of Claimed Costs                                  (436)
  Total Costs per FCTR                                 $23,919 *



* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             30
                                                                               Appendix A-8

                  National Science Foundation Award Number ATM-0089582
                                         Awarded to
                                 American Geophysical Union

                                    Schedule of Award Costs
                 For the Period September 15, 2000 through December 31, 2003
                                            Interim

                                Approved           Recorded          Questioned        Reference
     Cost Category               Budget             Costs              Costs            to Notes
XXXXXXXXXX                          XXXX                 XXX               XXX
XXXXXXXXX                            XXX                 XXX               XXX
XXXXXXXXXXX                          XXX                   XX               XX
XXXXXXXXX                           XXXX              XXXXX               XXXX
XXXXXXXX                               XX                  XX               XX
XXXXXXXXXXX                         XXXX                XXXX              XXXX
XXXXXXXXXXXX                           XX                  XX               XX
XXXXXXXXXXXX                        XXXX                 XXX               XXX
XXXXXXXXXXX                         XXXX                XXXX                XX
XXXXXXXXXX                             XX                  XX              XXX
XXXXXX                               XXX                XXXX               XXX
XXXX                                XXXX                XXXX                XX
    Total Direct Costs            $461,723            $222,420              $ 0

Indirect Costs                      33,983              16,314                 0
                    Totals        $495,706            $238,734               $ 0

Claimed Costs in Excess
of Recorded Costs                                        4,160             4,160      2
   Total Costs per FCTR                               $242,894 *
Total Questioned Costs                                                   $ 4,160




* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             31
                                                                              Appendix A-9

                National Science Foundation Award Number ATM-0118057
                                       Awarded to
                               American Geophysical Union

                                Schedule of Award Costs
               For the Period September 1, 2001 through February 28, 3002
                                          Final

                               Approved            Recorded          Questioned        Reference
     Cost Category              Budget              Costs              Costs            to Notes
XXXXXXXXXX                         XXXX                 XXX               XXX
XXXXXXXXX                          XXXX                 XXX               XXX
XXXXXXXXXXX                         XXX                 XXX             XXXXX
XXXXXXXXX                          XXXX               XXXXX              XXXX
XXXXXXXX                              XX                  XX              XXX
XXXXXXXXXXX                        XXXX                XXXX              XXXX                  XX
XXXXXXXXXXXX                        XXX                 XXX                XX
XXXXXXXXXXXX                       XXXX                 XXX               XXX
XXXXXXXXXXX                        XXXX                XXXX             XXXXX
XXXXXXXXXX                            XX                  XX              XXX
XXXXXX                              XXX                XXXX               XXX
XXXX                               XXXX                XXXX                XX
        Total Costs               $15,000             $10,583           $   32

Indirect Costs                                               0
   Total Costs per FCTR                                $10,583 *



* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             32
                                                                             Appendix A-10

                National Science Foundation Award Number OCE-0129558
                                      Awarded to
                              American Geophysical Union

                                 Schedule of Award Costs
                For the Period October 1, 1996 through September 30, 2000
                                           Final

                              Approved             Recorded          Questioned        Reference
    Cost Category              Budget               Costs              Costs            to Notes
XXXXXXXXXX                            XX                 XXX              XXX
XXXXXXXXX                           XXX                  XXX              XXX
XXXXXXXXXXX                         XXX                  XXX             XXXX
XXXXXXXXX                          XXXX                 XXXX             XXXX
XXXXXXXX                              XX                   XX              XX
XXXXXXXXXXX                        XXXX                 XXXX             XXXX                  XX
XXXXXXXXXXXX                        XXX                    XX              XX
XXXXXXXXXXXX                       XXXX                  XXX              XXX
XXXXXXXXXXX                         XXX                 XXXX            XXXXX
XXXXXXXXXX                            XX                   XX             XXX
XXXXXX                              XXX                  XXX              XXX
XXXX                               XXXX                 XXXX               XX
   Total Direct Costs             $19,356              $19,030          $ 334

Indirect Costs                        644                  628                 0
            Total Costs           $20,000              $19,658 *         $   334



* There is an insignificant difference of -$2 between the cumulative net disbursements
  reported on the FCTR for the quarter ended December 31, 2003 and AGU’s records.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             33
                                                                              Appendix A-11

                 National Science Foundation Award Number ATM-0139033
                                        Awarded to
                                American Geophysical Union

                                  Schedule of Award Costs
                  For the Period February 1, 2002 through January 31, 2003
                                            Final

                               Approved            Recorded          Questioned        Reference
     Cost Category              Budget              Costs              Costs            to Notes
XXXXXXXXXX                         XXXX                 XXX               XXX
XXXXXXXXX                          XXXX                 XXX               XXX
XXXXXXXXXXX                         XXX                 XXX             XXXXX
XXXXXXXXX                          XXXX               XXXXX              XXXX
XXXXXXXX                              XX                 XX               XXX
XXXXXXXXXXX                        XXXX                XXXX              XXXX                  XX
XXXXXXXXXXXX                        XXX                 XXX                XX
XXXXXXXXXXXX                       XXXX                 XXX               XXX
XXXXXXXXXXX                        XXXX                XXXX             XXXXX
XXXXXXXXXX                            XX                 XX               XXX
XXXXXX                              XXX                XXXX               XXX
XXXX                               XXXX                XXXX                XX
    Total Direct Costs            $18,000              $ 932             $ 924

Indirect Costs                          0                     0                 0
                   Totals         $18,000               $   932           $   924

Recorded Costs in
Excess of Claimed Costs                                    (8)
  Total Costs per FCTR                                  $ 924 *



* Agrees with cumulative net disbursements reported on the FCTR for the quarter ended
  December 31, 2003.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                             34
                                                                             Appendix A-12

                  National Science Foundation Award Number ATM-0322531
                                         Awarded to
                                 American Geophysical Union

                                   Schedule of Award Costs
                    For the Period May 15, 2003 through October 31, 2003
                                            Final

                                Approved           Recorded          Questioned        Reference
     Cost Category               Budget             Costs              Costs            to Notes
XXXXXXXXXX                            XX                 XXX               XXX
XXXXXXXXX                           XXX                    XX              XXX
XXXXXXXXXXX                        XXXX                  XXX             XXXX
XXXXXXXXX                          XXXX                 XXXX             XXXX
XXXXXXXX                              XX                   XX               XX
XXXXXXXXXXX                        XXXX                 XXXX             XXXX                  XX
XXXXXXXXXXXX                      XXXXX                    XX               XX
XXXXXXXXXXXX                       XXXX                  XXX               XXX
XXXXXXXXXXX                         XXX                 XXXX            XXXXX
XXXXXXXXXX                            XX                   XX              XXX
XXXXXX                              XXX                  XXX               XXX
XXXX                               XXXX                 XXXX                XX
     Total Direct Costs            $8,000               $5,157            $ 361

Indirect Costs                          200                   0                0
                 Total Costs         $8,200              $5,157 *           $361



* There is an insignificant difference of $2 between the cumulative net disbursements
  reported on the FCTR for the quarter ended December 31, 2003 and AGU’s records.

Note: The accompanying notes to explain questioned costs are integral part of this financial
      schedule.




                                              35
                                Notes to Explain Questioned Costs

1. Participant Support Costs - $24,734. We questioned $24,734 of participant support
   funds on eight awards because AGU reallocated funds intended for participant support
   category to other categories without obtaining required approval from NSF. According
   to NSF’s Grant General Conditions (GC-1), Article 2, grantees are required to obtain
   written prior approval from the cognizant NSF Program Officers to reallocate funds
   intended for participant or trainee support costs. In addition, award (and amendment)
   letters for several awards explicitly stated that funds provided for participant support
   should not be diverted by the grantee to other categories of expense without the prior
   written approval of the cognizant NSF Program Officer. The calculations of the
   questioned costs for these eight expired awards are as follows:


                       Budgeted           Claimed
                       Participant       Participant                         Unspent             Questioned
Award Number            Support           Support           Difference      Award Funds            Costs
                                                                                  30

DUE-9614954              $ 50,000         $ 37,749            $12,251         $ (3,540)              $ 8,711
OCE-9729933               868,625          856,173             12,452           (9,004)                3,448
ATM-9908640                 6,650                0              6,650                 0                6,650
EAR-9911107                10,800            6,090              4,710             (436)                4,274
ATM-0118057                15,000           10,551              4,449           (4,417)                   32
OCE-0129558                19,356           18,680                676             (342)                  334
ATM-0139033                18,000                0             18,000          (17,076)                  924
ATM-0322531                 8,000                0              8,000           (3,043)                  361
                                                                 Total Questioned Costs              $24,734

     In addition to these eight expired awards, we identified three active awards in which
     AGU is at risk of violating GC-1’s requirement of obtaining written prior approval from
     cognizant NSF Program Officers to divert funds intended for participant support to other
     cost categories. We did not question $203,510 of unspent participant support costs on
     these three awards because AGU still has time to rectify the situation. The calculations
     of three awards identified as at-risk funding are:




30
  In some cases AGU claimed less than the total award budget, and so some of the budgeted participant
support costs were not spent on other cost areas. For example, although the total budgeted amount for NSF
award ATM-0139033 was $18,000, all of which was for participant support costs, AGU only claimed $924
before the award was financially closed, therefore we limited the questioned costs to that amount.




                                                       36
                                                         Budgeted         Claimed
                       Amount            Amount          Participant     Participant
Award Number           Awarded          Claimed31         Support         Support           Difference
ATM-0089582            $495,706          $242,894         $373,633        $201,659           $171,974
EAR-0105317               71,890            6,994            31,040           2,304             28,736
ATM-0242473              104,976           26,845             2,800                0              2,800
                        $672,572          $266,486           Total At-Risk Funding            $203,510


     The eight expired awards with questioned costs and three active awards identified as at-
     risk funding occurred primarily because AGU does not formally compare the budgeted
     and actual award expenditures by NSF budget categories on a regular basis. In addition,
     AGU does not have a special category in its accounting system for participant support
     expenses that would make the comparison more efficient. This is significant because
     $2.2 million (or almost 25 percent) of $9.5 million awarded by NSF on 27 awards that
     we audited were allocated to the participant support category. In addition, NSF typically
     does not allow grantees to claim indirect costs on participant support category, which
     could happen if these costs are not adequately identified in the accounting system.

2. Costs Claimed in Excess of Recorded Costs - $6,372. We questioned $6,372 because
   AGU claimed costs that were not recorded in the general ledgers for two awards as
   required by OMB Circular A-110. AGU was not able to support $6,372 of expenditures
   it claimed on FCTRs as of December 31, 2003 for two awards with its accounting
   records. The calculations of questioned costs for these two awards are as follows:
                                          Claimed         Recorded         Questioned
                 Award Number              Costs           Costs             Costs
                 DUE-9614954              $ 92,223        $ 90,011            $2,212
                 ATM-0089582               242,894         238,734              4,160
                                                                              $6,372

     AGU does not record indirect costs in the general ledgers for its awards. Instead, AGU
     manually records the total direct costs from its general ledgers in a separate spreadsheet
     and manually calculates indirect costs for each award on a quarterly basis prior to filing
     FCTRs. The expenditures reported on FCTRs come from these spreadsheets. While
     AGU management does not know the exact cause of the differences between claimed
     costs and recorded costs for these two awards, it believes that human error may have
     contributed to the differences.




31
  Amount claimed by AGU on Federal Cash Transactions Reports of December 31, 2003. The total funds
remaining to meet the $203,510 difference between budgeted and claimed participant support is $406,086
($672,572-$266,486 = $406,086.)


                                                   37
3. Other Direct Costs. OMB Circular A-122, Attachment B, ¶ 46 c states that rental costs
    under less than arms-length leases are allowable only up to the amount that would be
    allowed had title to the property vested in this organization. OMB Circular A-122,
    Attachment B ¶ 18 states that costs of goods or services for the personal use of the
    organization’s employees are unallowable. OMB Circular A-122, Attachment B, ¶ 30 b
    states that costs of subscriptions to business, professional, and technical periodicals are
    allowable, thus by implication general circulation newspapers and magazines are not
    allowable. We questioned $151,590 of other direct costs on Award Number GEO-
    9901551, as follows:

              Cost                Questioned Amount                    Reason
     Rent                                 $142,32532 AGU charged NSF for unallowable rent
                                                     costs for the START program
     Canteen costs                           $6,273 Goods for employees’ personal use
     Spring Water                            $1,111 Goods for employees’ personal use
     NY Times,
     Economist,                                                General-circulation newspapers and
     Washington Post                             $1,881        magazines expenses are not allowable
     TOTAL                                     $151,590

4. Indirect Costs. We questioned $7,751 of indirect costs associated with questioned direct
    costs on two awards. Specifically, we applied the five percent indirect cost rate agreed
    to in the award letter to the $3,448 of questioned costs on award OCE-9729933,
    resulting in questioned indirect costs of $172. In addition, we applied the five percent
    rate to the questioned costs of $151,590 on award GEO-9901551, resulting in the
    remaining questioned indirect costs of $7,579.33



32
     The calculation of the direct rent overcharge is as follows.

RENT                                                                         YEAR
                                                1999          2000           2001           2002           2003      TOTAL
Actual                                       XXXXXXX        XXXXXX        XXXXXXX        XXXXXXX        XXXXXXX
Actual cost/sq. foot                            16.52         17.56          19.17          19.12          18.51
Billed (includes CPI adjustment)/sq ft          27.58         27.91          27.91          27.91          28.93
Overcharge/sq feet                              11.06         10.35           8.74           8.79          10.42
Overcharge ($)                           $     34,105
Total Overcharge                         $     24,158   $    31,931   $     26,949   $     27,128   $     32,159   $ 142,325
                                              8.5 mo*


TOTAL Square Feet                               XXXX
START square feet                               XXXX

*Note: For 1999 AGU overcharged START for only 8.5 months because the audited award became effective 4 15 99.

33
     5% *$151,590 = $7,579.


                                                             38
5. Cost Sharing. OMB Circular A-110, Subpart C, section .23 (a) states that cost sharing
   shall be verifiable, not used for any other Federal program, necessary and reasonable for
   the efficient accomplishment of program objectives, allowable under the applicable cost
   principles, not paid by the Federal Government under another award, and provided for in
   the approved budget. AGU did not provide the required cost sharing on NSF Award
   DUE-9614954. The amount of required cost sharing on the award was $9,341.
   The total NSF excess contribution on this award, which AGU should repay, was $8,101.
   The calculation is as follows:

                                  NSF Award DUE-9616954


   Maximum percentage of NSF funding to total project
   costs (original NSF share/anticipated total project
   costs)                                                                91%

   Total project costs (NSF and claimed cost sharing)                 $92,223
   Less: Questioned Cost                                               (2,212)

   Accepted project cost base                                         $90,011
   Maximum NSF share percentage                                          91%

   Maximum NSF required share accepted project costs                  $81,910

   Actual NSF accepted costs                                         $90,011
   Less: Maximum NSF required share                                  (81,910)
   Excess Federal (NSF) Contributions                                                     $8,101

In addition, AGU is at risk of not meeting its cost-sharing requirement of $14,757 on an
open NSF award, Award Number EAR-0105317, and having questioned cost-sharing costs
of $14,757.




                                            39
Appendix B-1

                                      American Geophysical Union
                                       Schedule of Indirect Costs
                                 For the year ended December 31, 2002

                                           Publications Division

                                       Proposed                            Recommended      Reference
         Cost Category                   Costs              Adjustments        Costs        To Notes

XXXXXXXXXX                             XXXXXX                        XX       XXXXXX
XXXXXXXXXXXX                               XXXX                 XXXXX             XXXX     XX
XXXXXXXXXXXX                               XXXX                      XX           XXXX
XXXXXXXXXX                                  XXX                      XX            XXX
XXXXXXXX                                   XXXX                      XX           XXXX
XXXXXXXXXX                                 XXXX               XXXXXX              XXXX     XXXXX
XXXXXXXXXXX                                XXXX                      XX           XXXX
XXXXXXXXXX                                 XXXX                      XX           XXXX
XXXXXXXXXX                                 XXXX                      XX           XXXX
XXXXXXXXXX                                 XXXX                      XX           XXXX
XXXXXXXXXXXX                               XXXX                      XX           XXXX
XXXX                                       XXXX                  XXXX             XXXX     XX
XXXXXXXX                                   XXXX                      XX           XXXX
XXXXXXXXXXXX                               XXXX                      XX           XXXX
XXXXXXXXXXXXXX                             XXXX                      XX           XXXX
XXXXXXXXXXXX                             XXXXX                       XX         XXXXX
     Total Indirect Costs              $2,192,790              $(38,095)      $2,154,695

Direct Cost Base                      $14,400,078                            $14,400,078
                                         (A)

Division Overhead Rate                  15.23%                               14.96%
Gen. & Admin. Rate34                    21.21%                               20.33%
Publications Division Rate              36.44%                               35.29%


       (A) The amounts agree with the indirect cost rate proposal submitted by the American
       Geophysical Union (AGU). The total costs before auditors’ adjustments and
       eliminations agree with AGU’s books of account.

       Note: The accompanying notes to explain adjustments and eliminations are an integral
       part of this financial schedule.




34
     See Schedule B-4 for General & Administrative Rates.


                                                      40
                                                                                     Appendix B-2

                                      American Geophysical Union
                                       Schedule of Indirect Costs
                                 For the year ended December 31, 2002

                                             Meetings Division

                                       Proposed                           Recommended       Reference
         Cost Category                   Costs              Adjustments       Costs         To Notes

XXXXXXXXXX                               XXXXX                      XX        XXXXX
XXXXXXXXXXXX                               XXXX                     XX          XXXX
XXXXXXXX                                   XXXX                     XX          XXXX
XXXXXXXXXX                                 XXXX                XXXXX            XXXX      XXX
XXXXXXXXXXX                                XXXX                     XX          XXXX
XXXXXXXXXX                                 XXXX                     XX          XXXX
XXXXXXXXXX                                 XXXX                     XX          XXXX
XXXXXXXXXX                                 XXXX                     XX          XXXX
XXXXXXXX                                   XXXX                     XX          XXXX
XXXXXXXXXXXX                                  XX                    XX             XX
XXXXXXXXXXXX                               XXXX                     XX          XXXX
    Total Indirect Costs                 $267,193              $(1,179)       $266,014

Direct Cost Base                       $3,373,178                            $3,373,178
                                         (A)                                  (A)

Division Overhead Rate                   7.92%                               7.89%
Gen. & Admin. Rate35                    21.21%                              20.33%
Meetings Division Rate                  29.13%                              28.22%


       (B) The amounts agree with the indirect cost rate proposal submitted by the American
       Geophysical Union (AGU). The total costs before auditors’ adjustments and
       eliminations agree with AGU’s books of account.

       Note: The accompanying notes to explain adjustments and eliminations are an integral
       part of this financial schedule.




35
     See Schedule B-4 for General & Administrative Rates.


                                                      41
                                                                                     Appendix B-3

                                      American Geophysical Union
                                       Schedule of Indirect Costs
                                 For the year ended December 31, 2002

                                             Outreach Division

                                       Proposed                           Recommended         Reference
         Cost Category                   Costs              Adjustments       Costs           To Notes

XXXXXXXXXX                               XXXXX                    XXX         XXXXX
XXXXXXXXXXXX                               XXXX                     XX          XXXX      XX
XXXXXXXX                                   XXXX                   XXX           XXXX
XXXXXXXXXX                                 XXXX                XXXXX            XXXX      XXX
XXXXXXXXXXX                              XXXXX                      XX        XXXXX
XXXXXXXXXX                                 XXXX                     XX          XXXX
XXXXXXXXXX                               XXXXX                      XX          XXXX
XXXXXXXXXX                                 XXXX                     XX          XXXX
    Total Indirect Costs                 $199,386              $(5,877)       $193,509

Direct Cost Base                       $1,114,921                $2,693      $1,117,614   7
                                         (A)                                  (A)

Division Overhead Rate                  17.88%                              17.31%
Gen. & Admin. Rate36                    21.21%                              20.33%
   Outreach Division Rate               39.09%                              37.64%


       (C) The amounts agree with the indirect cost rate proposal submitted by the American
       Geophysical Union (AGU). The total costs before auditors’ adjustments and
       eliminations agree with AGU’s books of account.

       Note: The accompanying notes to explain adjustments and eliminations are an integral
       part of this financial schedule.




36
     See Schedule B-4 for General & Administrative Rates.


                                                      42
                                                                             Appendix B-4

                                 American Geophysical Union
                                  Schedule of Indirect Costs
                            For the year ended December 31, 2002

                            General & Administrative Allocation

                                Proposed                          Recommended         Reference
      Cost Category               Costs           Adjustments         Costs           To Notes

XXXXXXXXXX                        XXXXX                 XXX            XXXXX      XXXX
XXXXXXXXXXXX                        XXXX                  XX             XXXX     XX
XXXXXXXX                            XXXX                XXX              XXXX     XX
XXXXXXXXXX                          XXXX             XXXXX               XXXX     XXX
XXXXXXXXXXX                       XXXXX                   XX           XXXXX      XXXX
XXXXXXXXXX                          XXXX                  XX             XXXX     XX
XXXXXXXXXX                        XXXXX                   XX             XXXX
XXXXXXXXXX                          XXXX                  XX             XXXX
XXXXXXXXXX                        XXXXX               XXXX             XXXXX      XX
XXXXXXXXXXXX                      XXXXX               XXXX             XXXXX      XX
XXXX                            XXXXXX                    XX         XXXXXX
XXXXXXXXXXXX                        XXXX           XXXXXX                 XXX     XXX
XXXX                              XXXXX              XXXXX             XXXXX      XX
XXXXXXXXXXXX                      XXXXX                   XX           XXXXX
XXXXXX                            XXXXX                   XX           XXXXX
XXXX                              XXXXX                   XX           XXXXX
XXXXXX                            XXXXX                 XXX            XXXXX
XXXXXXXX                          XXXXX                   XX           XXXXX
XXXXXXXXXXXX                        XXXX                  XX             XXXX     XX
XXXXXXXXXXXXXX                    XXXXX                   XX           XXXXX
XXXXXXXXX                         XXXXX                   XX           XXXXX
XXXXXXXXXXXX                   XXXXXXX               XXXXX          XXXXXXX       XX
     Total Indirect Costs       $4,902,338         $(188,606)        $4,713,732

Direct Cost Base               $23,111,331            $70,575       $23,181,906   1
                                  (A)                                 (A)

Allocation Rate                  21.21%                             20.33%

   (D) The amounts agree with the indirect cost rate proposal submitted by the American
   Geophysical Union (AGU). The total costs before auditors’ adjustments and
   eliminations agree with AGU’s books of account.

   Note: The accompanying notes to explain adjustments and eliminations are integral part
   of this financial schedule.




                                             43
                            Notes to Explain Adjustments

1. Misclassification of Society Activities’ Functions as Indirect Costs - $70,575. We
removed $70,575 of expenses related to Society Activities’ functions allocated to the
Administrative Allocation indirect cost pool. The three programs within Society
Activities that should be allocated to the direct cost base instead of indirect cost pool are:
Sections ($24,692), Committee on International Participation ($39,421), and
International Liaison ($6,462).

According to OMB Circular A-122, direct costs are those that can be identified
specifically with a particular final cost objective such as a particular award, project,
service, or other direct activity of an organization. In addition, this circular states that
the costs of activities performed primarily as a service to members, clients, or the
general public when significant and necessary to the organization’s mission must be
treated as direct costs whether or not allowable, and be allocated an equitable share of
indirect costs. Some examples of these activities include:

Sections’ functions - $24,692: AGU allocated $24,692 related to Sections’ functions as
indirect costs. The expenses allocated to the Sections’ functions are for maintaining the
infrastructure of Sections so that they can provide services to AGU in terms of providing
scientific advice, organizing volunteers to perform tasks, organizing meetings, etc. In
addition, the Sections’ functions are part of membership services. It should be noted that
AGU allocated expenses related to the Technical Committee (also known as Focus
Group) as direct costs. This committee has similar function and expenses as Sections,
including support for volunteers. Therefore, we believe that the expenses related to
Sections should be treated as direct costs instead of indirect costs.

Committee on International Participation (CIP) - $39,421: AGU allocated $39,421
related to the Committee on International Participation’s functions as indirect costs.
This administrative group was charged with the responsibility of ensuring that scientists
around the world are served by AGU on as equal basis as possible. Expenses allocated
to this group were related to the activities and general projects that include management
of the Berkner grants/fellowships, the Lend-a-Hand program, and organizing
convocations of regional/national societies. We believe that expenses related to this
group should be treated as direct costs instead of indirect costs because it appears that
the activities did not benefit the organization as a whole.

International Liaison - $6,462: AGU allocated $6,462 related to International Liaison’s
functions as indirect costs. The expenses allocated to this function were related to
administrative support for the U.S. National Committee of IUGG. We do not believe
that the expenses related to this function should be treated as indirect costs because it
appears that the activities of this group did not benefit the organization as a whole.




                                            44
The distribution of the Society Activities’ functions by cost category that should be treated
as direct costs are as follows:
                                                                            Committee on
                                                                            International       International
                 Cost Category                 Total         Sections       Participation          Liaison
              XXXXXXXXXXXXX                    XXXX          XXXXX             XXXXXX                 XXXX
              XXX                                                   X
              XXXXXXXXXX                       XXXX            XXXX                  XXX                XX
              XXXXXXXX                          XXX             XXX                    XX               XX
              XXXXXXXXXX                       XXXX            XXXX                  XXX             XXXX
              XXXXXXXXXXX                       XXX             XXX                    XX               XX
              XXXXXXXXXX                          XX              XX                   XX               XX
              XXXXXXXXXXXX                     XXXX               XX                XXXX                XX
              XXXXXXXXXXXX                     XXXX             XXX                    XX            XXXX
                              Total           $70,575         $24,692              $39,421           $6,462

       Reallocating the expenses related to Society Activities’ functions from the
       Administrative Allocation indirect cost pool to direct cost base would reduce the indirect
       cost rates by 0.37 percent for each division.

       2. Inadequate Support for Credit Card Transactions - $68,412. We removed
       $68,412 of charges from two indirect cost pools, namely the Publications division and
       Administrative Allocation, because AGU relied on credit card statements as a source of
       support instead of retaining vendors’ invoices and receipts. OMB Circular A-110
       requires grantees to maintain a financial management system that provides for
       accounting records including cost accounting records that are supported by source
       documentation. OMB Circular A-122 also requires that costs be adequately
       documented. Without adequate source documentation, we could not readily determine
       whether the costs allocated to the indirect cost pools were allowable under OMB
       Circular A-122. The credit card transactions were allocated to the following categories:

                                                    Administrative          Publications
                        Cost Category                Allocation              Division           Total
                    Travel                               $52,085                $14,909         $66,994
                    Other Personnel Costs                   1,063                      0          1,063
                    Services & Supplies                       255                      0            255
                    Equipment                                 100                      0            100
                                                         $53,503                $14,909         $68,412

       In addition to lack of adequate supporting documentation for credit card transactions, we
       found instances where unallowable and/or unreasonable costs may have been charged to
       the indirect cost pools. Potential unallowable and/or unreasonable costs include:

             a. AGU charged $55,155 of travel costs, most of which were for airfare, to the
                indirect cost pools ($40,247 to the Administrative Allocation pool and $14,90837

37
     The difference between this number and the number in the table above is due to rounding.


                                                        45
             to the Publications division pool). Without boarding passes or receipts from
             airlines we could not determine the class of the accommodations and whether
             they were allowable according to OMB Circular A-122.

        b. AGU allocated $5,324 of credit card charges (10 transactions) to the
           Administrative Allocation indirect cost pool. For example, on six transactions an
           AGU employee incurred $2,628 of charges for lodging without hotel receipts.38
           For an additional $2,696 (four transactions) the credit card statements did not
           even specify number of nights.39 Without supporting receipts from hotels, we
           were not able to confirm the actual overcharges because the credit card
           statements may have included taxes, meals, and possibly unallowable charges
           such as alcoholic beverages.

        c. AGU allocated $2,942 of credit card charges (21 transactions) to the
           Administrative Allocation indirect cost pool as travel costs for meals at various
           restaurants but did not provide adequate supporting documentation. The meal
           charges appeared to be excessive; but without detailed receipts from the
           restaurants, we could not determine whether any of the costs were allowable. We
           did note that 16 of these transactions included exclusions for unallowable
           alcoholic beverages. The exclusions were manually performed at the bottom of
           the credit card statement when received in the mail, which is usually about a
           month after the charge; but without receipts from restaurants, we could not
           determine whether the exclusions were correctly calculated.

        d. AGU allocated $1,297 of credit card charges (4 transactions) to the
           Administrative Allocation indirect cost pool as travel costs even though it was
           for meal charges at local restaurants, which are not allowable since the
           employees were not on official travel status. In addition, it appears that these
           meal charges were excessive and unreasonable.

        e. AGU allocated $350 of other personnel costs to the Administrative Allocation
           indirect cost pool for membership dues at United Airlines’ Red Carpet Club and
           Six Continents Club in the United Kingdom, which are not allowable under
           OMB Circular A-122. These clubs are considered as social clubs in airports and
           are not necessary for AGU operations.

        f. AGU allocated $136 of credit card charges (three transactions) to the
           Administrative Allocation indirect cost pool as books and magazine
           subscriptions. Examples of purchases include subscriptions to the Wall Street



38
   In addition, these charges appeared to be excessive compared to the Federal Government’s per diem rates for
maximum lodging costs per night. Of the $2,628 included in the administrative cost pool, the per diem costs
were $1,293 and thus the employee incurred $1,335 in excessive lodging costs on the six transactions ($2,628-
$1,293=$1,335).
39
   Thus, in this case we were not able to determine the excess amount over per diem that AGU included in the
pool.


                                                     46
               Journal and the Wine Spectator. The purchases appear to be either unrelated to
               AGU’s core mission or personal in nature.

           g. AGU allocated $3,208 of credit card charges (31 transactions) to the
              Administrative Allocation indirect cost pools for travel ($2,276), other personnel
              costs ($713), services and supplies ($119), and equipment ($100) for various
              purchases without adequate supporting documentation. The employee(s) in
              question were not informed by AGU that credit card statements are not adequate
              as supporting documentation. It also appears that the employees responsible for
              approving the transactions did not think they could enforce this on their
              superiors.

       Elimination of $68,412 from the indirect cost pools will reduce the Publications division
       rate by 0.34 percent and the Meetings division, Outreach division, and Administrative
       Allocation rates by 0.23 percent each.

       3. Unallowable Alcoholic Beverages - $15,485. We removed $15,485 of unallowable
       alcoholic beverages included in the Publications division, Meetings division, and
       Administrative Allocation indirect cost pools. OMB Circular A-122, Attachment B,
       Paragraph 2 stated that the costs of alcoholic beverages are unallowable.

       AGU typically excludes alcoholic beverages from the indirect cost pools in its indirect
       cost proposal by recording these costs under two accounts XXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXX. AGU subsequently excluded $7,609
       of these unallowable alcoholic beverage purchases from the indirect cost pools in the
       proposal. However, AGU forgot to exclude $15,485 of similar expenses from the
       indirect cost pools in the proposal because of insufficient oversight. Exclusion of the
       $15,485 would reduce the Administrative Allocation rate by 0.05 percent, the
       Publications division rate by 0.07 percent, the Meetings division rate by 0.08 percent,
       and the Outreach division rate by 0.04 percent.

       4. Excessive and Unreasonable Group Meal Costs - $14,452. We removed $14,452
       of excessive and unreasonable group luncheon and dinner expenses allocated to the
       Publications division and Administrative Allocation indirect cost pools. OMB Circular
       A-122 states that costs must be reasonable for the performance of the award and be
       allocable to it. However, we found that:

           a. AGU included $12,933 of excessive and unreasonable meal costs in its
              Publications indirect cost pool for a dinner catered by the California Culinary
              Academy at the 2002 Fall Meeting in San Francisco. The invoice from the
              caterer showed that the $15,933 dinner for 150 included $3,662 of unallowable
              alcoholic beverages, which we excluded from the indirect cost pool. We also
              excluded an additional $9,271 because we believe that $81.8140 per person for a
              dinner (excluding alcoholic beverages) was excessive and unreasonable and
              should not have been included in an indirect cost pool that may be applied to
40
     $15,933/150= $106.22 per person, less $24.41 for alcoholic beverages = $81.81.


                                                       47
       Federal awards. We used the General Services Administration (GSA) rates as
       the basis for reasonableness. The GSA per diem for San Francisco in fiscal year
       2002 for meals and incidental expenses was $46 per day of which $18 was
       allocated for dinner. Based on this guideline, we estimated that $20 per person
       was a reasonable dinner cost. Therefore, we allowed $3,000 ($20 per person x
       150 attendees) and excluded the remaining $12,933 as excessive and
       unreasonable group dinner expenses.

   b. AGU included $712 of excessive and unreasonable costs in the Publication
      divisions indirect cost pool for a Publications Committee dinner in Washington,
      D.C in September 2002. For the 15-person dinner, AGU included a total of
      $1,012 in the pool, thus equating to a per-person charge of $67, which was
      unreasonable for inclusion in an indirect cost pool that might be applied to
      Federal awards. Using the GSA per diem rate for Washington D.C. for dinner of
      $18 as our basis for reasonableness, we computed an allowable cost of $300 ($20
      per person x 15), and excluded the $712 ($1,012-$300) claimed in excess of this
      amount as unreasonable.

   c. AGU included $694 of excessive and unreasonable charges in the Administrative
      Allocation indirect cost pool for a Budget and Finance Committee dinner, for
      which AGU added $854 to the pool. The documentation provided did not show
      the exact number of attendees; however, according to AGU’s website, this
      committee had eight members. Assuming all eight members attended the event,
      that would equate to a per person charge of $107, which was unreasonable for
      inclusion in an indirect cost pool that might be applied to Federal awards. Using
      the GSA per diem rate of $18 for dinners in Washington D.C. as our basis for
      reasonableness, we computed an allowable cost of $160 ($20 per person x 8). As
      a result, we excluded the $694 ($854-$160) claimed in excess of this amount as
      unreasonable.

   d. AGU allocated $113 for a "celebration luncheon" at a local restaurant for six
      employees upon completion of the fiscal year 2001 audit to the Administrative
      Allocation indirect cost pool. Because AGU does not have a written policy
      allowing celebratory luncheons, we do not believe that the cost of this luncheon
      should be allocated to Federal Government grants.

While AGU has a policy that limits meal costs for employees on travel status, AGU does
not apply similar policy to group luncheons or dinners held locally. Excluding these
expenses from the Administrative Allocation indirect cost pool would have no effect on
the indirect cost rates. However, exclusion of similar charges from the Publications
division indirect cost pool would reduce its rate by 0.10 percent.

5. Other Personnel Costs - $21,990. We removed $21,990 of other personnel costs
allocated to the Administrative Allocation ($21,145) and Outreach division ($845)
indirect cost pools for failure to credit employees’ payments to fitness club membership,




                                         48
excessive and unreasonable holiday party expenses, and unnecessary floral arrangement
expenses, as follows:

   a. Credit for Fitness Club Membership - $15,620. AGU incurred and allocated
      $44,516 in membership fees for employees’ participation at a local fitness club to
      the Administrative Allocation indirect cost pool, but did not reduce the amount
      with the $15,620 it collected from employees’ paychecks to partially offset the
      membership fees. OMB Circular A-122 requires that applicable credits that
      offset or reduce expense items should be credited to the Federal Government
      either as a cost reduction or cash refunds, as appropriate. This occurred because
      the paycheck deductions were not recorded as AGU expenses and the Human
      Resources department, responsible for the payroll records, did not have any
      accounting personnel. Crediting employees' paycheck deductions to the
      Administrative Allocation indirect cost pool would reduce the indirect cost rates
      for each division by 0.07 percent.

   b. Holiday Party - $5,235. We removed $5,235 of holiday party expenses, which
      AGU claimed as Other Personnel Costs to the Administrative Allocation indirect
      cost pool as unallowable entertainment costs. Excluding these entertainment
      costs from the Administrative Allocation pool would reduce each division’s rates
      by 0.02 percent.

   c. Floral Arrangement Costs - $1,135. We removed $1,135 of floral arrangement
      costs that AGU included in its Outreach division ($845) and Administrative
      Allocation ($290) indirect cost pools because AGU did not consistently treat
      these costs as required by OMB Circular A-122. Specifically, we found that
      AGU excluded $532 of floral arrangements purchases from the indirect cost
      pools. Accordingly, we believe AGU should also exclude $1,135 of floral
      arrangement costs that it included in the indirect cost pools. AGU management
      concurred that the failure to remove these purchases from the indirect cost pools
      was an oversight. We believe this may have occurred because AGU did not have
      a formal written policies and procedures on the development of indirect cost
      proposals. Excluding the purchases of floral arrangements from the
      Administrative Allocation indirect cost pool would have no effect on the indirect
      cost rates. However, the Outreach division indirect cost rate would be reduced
      by 0.07 percent.

6. Travel & Official - $10,017. We removed $10,017 of travel-related expenses
allocated to the Publications division ($2,614), Meetings division ($353), and
Administrative Allocation ($7,050) indirect cost pools for the following reasons:

   a. Local Lodging Costs by AGU Employees. AGU incurred $9,236 of lodging
      costs at local hotels for its employees and allocated these costs as travel costs to
      the Publications division, Meetings division and Administrative Allocation
      indirect cost pools. We removed these costs in total because the employees were
      not on official travel status and OMB Circular A-122 states that local travel costs



                                         49
               should not include entitlements of per diem and lodging costs. There were
               several instances during FY 2002 when AGU employees stayed at local hotels
               during various meetings. The instances of local lodging costs include:

                x AGU included $5,440 of lodging costs for eight employees to participate in
                   AGU’s Leadership Conference in Leesburg, Virginia during May 2002. We
                   do not believe that lodging costs for its employees at this conference is
                   reasonable because Leesburg is part of Loudoun County, which is included
                   in NSF’s definition of local commuting area.

                x AGU included $1,863 of hotel costs for four employees to participate in the
                   2002 Spring Meeting at Washington, D.C.

                x AGU included $950 of lodging costs for employees to participate in various
                   meetings in Washington, D.C. between August and November 2002.

                x AGU included $800 of lodging costs for four employees to participate in a
                   March 2002 meeting in Washington, D.C. in preparation of the 2002 Spring
                   Meeting.

                x AGU included $183 of lodging costs for an employee to participate in the
                   Meeting Committee’s May 2002 meeting in Washington, D.C.

                It is AGU’s policy to allow its employees to incur local lodging costs during
                meetings with approvals from their supervisors if their participation requires
                they spend more than certain hours a day on site. However, we do not believe
                that it is reasonable to charge local lodging costs as indirect costs to the Federal
                Government. Removing these local lodging costs from the indirect cost pools
                would reduce the indirect cost rates for Publications division by 0.05 percent,
                Meetings division by 0.04 percent, and Outreach division and Administrative
                Allocation by 0.03 percent each.

           b. Excessive Lodging Costs - $630. AGU incurred $630 of lodging expenses that
              we believe to be excessive and unreasonable when compared to the Federal
              Government’s official per diem rates.41 In the first instance, an employee spent
              three nights in San Antonio for a training session in April 2002 at a rate of $223
              per night while the Federal Government’s per diem rate for that city during fiscal
              year 2002 was $91 per night. In the second instance, an employee spent two
              nights in Philadelphia for a roundtable meeting in September 2002 at a rate of
              $235 per night while the Federal Government’s per diem rate at that time for that
              city was $118 per night. Excessive lodging costs occurred because AGU did not
              have travel policies that outline the maximum lodging rates that could be charged

41
     The calculation of the $630 excess is as follows:
     San Antonio: $223-$91 = $132. $132 * 3 = $396.
     Philadelphia: $235-$118 = $117. $ 117 * 2 = $234.
     Excess: $396 + $234 = $630.


                                                     50
       to Federal awards. Excluding these excessive lodging costs from the indirect
       cost pools would not have any effect on the indirect cost rates.

   c. Meals from Local Restaurants - $151. AGU included $151 of unallowable meals
      from local restaurants while employees attended training classes locally in the
      Washington, D.C. area. OMB Circular A-122 states that local travel costs do not
      include the entitlements of per diem and lodging costs. This occurred because
      AGU’s travel policies allow meal costs at local restaurants while on training,
      even if it is being held locally. Excluding these local meal costs from the indirect
      cost pools would not have any effect on the indirect cost rates, however we note
      that it is important for AGU to realize the difference between local and out of
      town travel.

7. Grants & Contributions - $13,193. We removed $13,193 of grants and
contributions expenses allocated to the Outreach division and Administrative Allocation
indirect cost pools for the following reasons:

   a. Unallowable donations - $10,500. OMB Circular A-122 states that contributions
      and donation by the organization to others are unallowable; therefore, we
      removed $10,500 of unallowable donations included in the Administrative
      Allocation indirect cost pool. Specifically, AGU donated $10,000 to the Greater
      Washington Society of American Executives’ Association Leadership
      Foundation and $500 to the American Society of Association Executives’
      Association Advance America Fund. In both instances, AGU’s check request
      form indicated that the payments were for donations. Removal of unallowable
      donations from the Administrative Allocation indirect cost pool will reduce the
      indirect cost rates by 0.04 percent.

   b. Misclassification of Fellowship as Indirect Costs - $2,693. We removed $2,693
      of claimed indirect costs for a fellowship grant that we believe should have been
      classified as direct costs. OMB Circular A-122 states that costs that can be
      identified with a particular final cost objective should be a direct cost. AGU
      awarded a fellowship grant to the University of Delaware’s Graduate College of
      Marine Studies for support of a high school science teacher working at a research
      laboratory during summer of 2002. This grant does not benefit the organization
      as a whole and therefore should be classified as a direct cost and included in the
      direct cost base. This occurred because the Outreach division management’s
      accounting unit incorrectly accounted for the payment. Reallocating this
      fellowship grant from the Outreach division indirect cost pool to the Outreach
      division direct cost base would reduce the indirect cost rate by 0.05 percent.

8. Dues - $1,850. AGU allocated $1,850 of dues expenses to its Administrative
Allocation indirect cost pool without prior approval from its cognizant Federal agency
(NSF) as required by OMB Circular A-122. Specifically, AGU included $1,850 of
corporate membership dues for the Greater Washington Board of Trade, a civic
organization as part of the regional chamber of commerce for the District of Columbia,



                                         51
Northern Virginia, and Suburban Maryland. This type of cost is allowable under OMB
Circular A-122, but AGU did not obtain prior approval from NSF to include
membership dues for a civic organization in the indirect cost proposal. Removing the
unauthorized membership dues would reduce the indirect cost rates for each division by
0.01 percent.

9. Unsupported Costs - $17,783. We removed $17,783 of unsupported expenses
allocated to the Publications division, Outreach division, and Administrative Allocation
indirect cost pools because AGU could not provide sufficient supporting documentation
as required by OMB Circulars A-110 and A-122. For example:

   a. In the indirect cost proposal, AGU claimed that the Outreach division incurred
      $3,713 in other personnel costs while it could support only $1,374 in its
      accounting records, a difference of $2,339.

   b. AGU was not able to provide supporting documentation for four payments to
      vendors totaling $13,334 recorded in the accounting records.

   c. Although AGU provided expense reports submitted by four employees totaling
      $1,307, it could not provide receipts to support the expenses included in the
      reports.

   d. AGU could not support $605 of claimed travel costs for the 2002 Spring Meeting
      in Washington, D.C. that was allocated to the Administrative Allocation indirect
      cost pool.

   e. AGU used a monthly credit card statement to support $198 allocated as travel
      costs to the Administrative Allocation indirect cost pool. The credit card
      statement showed that the $198 of the charges consisted of purchases from
      bakeries, grocery stores, and local restaurants.

Without adequate supporting documentation from vendors, we could not determine
whether the claimed costs were allocable to the indirect cost pools, allowable according
to OMB Circular A-122, and reasonable. Specifically, a credit card statement is not
adequate supporting documentation because it does not provide descriptions of the items
purchased. Removal of $17,783 in unsupported costs from the indirect cost pools will
reduce the indirect cost rates by 0.08 percent for the Publications division, 0.05 percent
for the Meetings division, 0.26 for the Outreach division, and 0.05 for the Administrative
Allocation.




                                         52
 SECTION IV

AGU RESPONSE
                                                                         August 17,2005



             National Science Foundation
             4201 Wilson Boulevard
             Suite 1135
             Arlington, Virginia 22230




         .
                      As per your request, I have attached a copy of AGU's response to NSF's drafl
              report on the Finuncial and CompIiance Au& ofIdirect Costsfor the Year Enrked
              December 3 1, 2002 and Inmrred Costs on 2 7 Awards porn October 1,1996 to December
              31, 2003, whch was faxed to you on Friday, August 12,2005.


              -
                        If you have any questions or require addtional, please contact                    -
              enclosure




A worldwide scientific community that advances, through unselfishcooperationin research,the understandingd Earth and space fcs the benetit d humanity.
2000 Florida Avenue, NW, Washington, DC               20009-1277 USA          Tel: +I 202.462.6900       Fax: +I 202.328.0566        www.agu.org
AGU response to the draft Report of the Spring2004 audit by NSF
of AGU's FY 2002 indirect cost proposal and of incurred costs from
              1 October 1996 31 December 2003.-
T h s Report in its earliest form pointed out important errors in our accountmg for expenhtures
and weaknesses in our grant management practices. We appreciated having these human and
procedural errors brought to our attention and began irnmedately to use h s informationto
improve our overall performance and to effect positive change in our procedures and systems.

In h s response we have been asked to address the finhngs and recornmendationsin Section lS.of
the Report. Detailed comments follow in the order that the issues are presented in the Report;
first we summarizeour view.
        The more than $200,000 of unallowable costs on awards is overstated by at least a factor
        of four above what is reasonable. Before dsallowing it fair consideration should be gven
        to how the approximately $150,000 of excess rental charges arose and at the reduced cost
        to the governmentthat bore those rental costs in lieu of a more substantial inhect cost
        charge, and to the START activityin terms of available funds for program.

       We do not accept that it is inappropriate to have payroll responsibility combined with
       other human resource activities. Adequate controls are possible without tahng that step.
       One control we use is the review of performance versus budget throughout the year by all
       managers who are responsible for projects to whch compensation is charged. That
       review makes fraud and errors dfficult to obscure. Nevertheless, in payroll and in the
       other areas in whch weak procedures and lack of knowledge are noted as a concern we
       are talang steps to shengthenthe situation.

       Lastly in h s summary we pote that the FY2002 inhrect cost proposal that you auhted
       was comprised of 3 hfferent rates instead of the single rate currently in effect. m l e
       AGU does dstnbuteits inhrect costs from four separate pools, it is not, and never was
       our intent to ask for approval of anyhng but a single rate for our organization. Separate
       rates would be very dfficult to manage fairly because the projects we undertake with
       grant support frequently cut across the functional structure that serves the bulk of our
       activitywell. We request that the current rate remain in effect untd N SF has an
       opportuIlltyto review a 2004 proposal based on the pdelines suggested by the auht.

Unallowable Costs on NSF Awards

Rmhd Chawes
There are three separate reasons, each of h c h , in our view, alone fully supports the current
rental arrangement with START and its continuation into the future.
        1. The arrangement was negotiated'at arms length prior to any contemplationof the
        current arrangement through which the NSF portion of START's budget became the legal
        responsibility of AGU. START and AGU remain completely independent organizations,
        START operating under the International Council. for Science in Paris and AGU a US,
        SO l(c)(3), scientific society. We are associated only by an mangement for AGU to
        provide specific services under an MOU and common scientific interests and objectives.

       2. The 5% indirxt cost rate was understood by NSF program officers, START and AGU
       to be important to achieving START's objectives and was recognized, with the rental
       arrangement, as being in toto substantially less than usual indirect cost rates.

       3. This arrangement is to the government's benefit because AGU is relieving the burden
       of maintaining the START S e c r e ~ atot the extent that normal indirect costs are forgone.
       In the figures before us the proposed take back of "excessive rent costs" is about
       $150,000 over the 4 years examined. The indirect costs accorded to AGU in that period
       at 5%were also about $150,000. At 35% of direct cost the indirect cost would have been
       >$1,000,000. Some noticeable fraction of $200,000 per year accrues to the benefit of the
       government because of this mangement. In addition, the low rate enhances the START
       image abroad making it more effective and better reflects true operating costs and
       START as an independent entity.

The Report also fails to take into account that the rental charges were listed in the budgetary
explanation included in the proposal to the NSF GEO-9901551; peer-reviewed and subsequently
approved by the cognizant NSF program officer and in the grant awarded by NSF.

Only about 1/3 of START revenue formally flows through AGU. To characterize START as
related to AGU could have a detrimental effect on START's ability to perform its function
worldwide. AGU views START as a valued partner that is pursuing common goals. AGU
serves only as an administrative agent for START with respect to matters selected by START.

It would be unfair to AGU and potemtially damaging to START to precipitously alter this
relationship and to ask for the return of a portion of the pittance that has been paid in place of
higher indirect costs.

Participant Support Funds Spent on Other Cost Areas

DUE-9614954 Spheres of Influence
At this date AGU cannot document participant support costs for the questioned amount, and,
therefore, accepts responsibility for the $8,7 11 indicated in the Report.

OCE-9729933 START
In December 2000, payments for preparation of data and models in support of a workshop were
charged to OCE-9729933. A portion of those costs should have been charged to a private grant.
AGU accepts responsibility for the $3,448 in questioned costs.
ATM-9908640 Chapman Conference Water Vapor Climate System
Five students were supported under this award to participate in the Chapman Conference as
noted in the final report to NSF. AGU is in the process of retrieving records that document
participant support expenses under this award. We expect to show that no funds are due NSF.

EAR-99 11107 Science Teacher and Research Scientist Workshop
Following the December 1999 workshop, the grant had $8,352 remaining. AGU requested and
received permission via email f    r     o     m    , cognizant NSF program official, to use the
remaining funds to provide a STaRS Fellowship to a teacher during the summer of 200 1. The
teacher selected w          a          s a high school chemistry teacher from Delaware, who
performed research under the direction of Professor                 of the University of
Delaware. AGU considers the funds properly spent under the terms of the grant.

ATM-0 118057 Chapman Confe~nceAtmospheric Absorption and
OCE-0129558 Chapman Conference Volcanism
These were accounting errors of $366 for which we accept full responsibility.

ATM-0 139033Chapman Conference Volcanism (Greece)
This was an accounting error of $924 for which we accept full responsibility.

ATM-0322531 Chapman Conference Physical Modeling of Inner Magnetosphere
AGU recorded $4,797 in participant support costs through 2003 under Grants & Contributions
natural category in the general ledger. Those funds supported documented travel expenses for
graduate students as noted in the final report to NSF, and should have been recorded under the
Travel & Off~ccialnatural category to be consistent with our standard practice for participant
support costs. However, we erroneously recorded $360 of Compensation & Benefits under the
grant and accepts responsibility for that amount.

Goods or Sewices for Personal Use
                                    I


This practice was changed while the audit was in progress and such charges and now paid out of
discretionary non-US funds available to the START Secretariat.

Claimed Award Amunt Different from General k d ~ eAmounts
                                                   r

DUE-96 14954 Spheres of Influence
AGU accepts responsibility for this error of $2,2 12.

ATM-0089582 Earth Systems History II
This grant is still open and the error of $4,160 will be corrected in a forthcoming FCTR.
Cost-ShurinnProcedures

DUE-96 12954 Spheres of Influence
We are confident that our cost-sharing obligation was met; however, we cannot provide
documentation of that, and, therefore, must accept responsibility for the questioned $8,10 1
identified in the Report.


EAR-01053 17
AGU is documenting cost-sharing expenses for this open NSF award. Since the award is not
closed no judgement should be made yet.

AGU introduced an improved policy for tracking expenses for grants requiring cost sharing in
2002.

Internal Control Weaknesses

Segregation of Personnel and Accounthp Functions

We remain unconvinced that theonly way to achieve adequate internal control in the payroll area
is to assign payroll to accounting rather than leave it in Human Resources. Reconciliation of the
payroll account is done monthly now, it has always been policy to do so. Other management
reviews, such as of review of payroll data by management and office-wide management review
of budget versus compensation, supplement these to assure that errors and fraud are avoided. We
are re-examining the procedures to ensure that they continue to be most effective in that regard.

Sub-award Management

As a result of the deficiency identified in the NSF audit, AGU will flow down Federal cost
principles to grant subrecipients in dl cases. In addition, AGU will, to the extent practicable,
require periodic financial reports from sub-recipients,request and review documentation of costs
reported in the fmancial reports, and make available information and materials that wiU assist
subrecipients in un&rs tanding and following the cost principles. We also are reviewing policies
with regard to advancement of funds for sub-awards and plan to document procedures to be
performed in connection with what site visits are possible.

Travel Procedures
AGU' s travel reimbursement policies have been updated and are spelled out explicitly on the
travel reimbursement forms provided to those incuing travel-related costs under NSF awards.
Requests for reimbursement on the forms are reviewed for allowability and reasonableness by at
least three people at AGU before funds are reimbursed, and that practice will continue.
However, to address some of the concerns addressed in the Report and for ease in processing and
reduced risk of error, a per diem basis, at the suggestion of the NSF auditors, will be used for
travel under NSF awards despite the fact that we believe that will result in higher cost to the
government than the previous system.

Mamaemen t of F k d Assets

A complete inventory is underway and is being reconciled with the fixed asset records as it
proceeds. Other policies and practices are also being reviewed.


P u r c h i n a Controls

 These procedures are to be reviewed and strengthened; however, at present there is good ex post
fact0 review through the system that requires every payment to be signed by either the Executive
 Director or his Deputy. That has been standard practice unfailingly for at least 40 years and
 means that most mistakes only occur once and there can be little fraud if any.

Indirect Cost Proposal Methodology

We think some of the adjustments in this section are just rubbish, many are debatable and a few
of the comments and adjustments are appropriate. Because this whole section deals with moving
a very small percentage from indirect to direct cost we decided to change our practices and
directly charge several of the types of items that were questioned rather than hassle about them
on an ongoing basis.

We do take exception to the implication that the activities of our Committee on International
Participation are not critical to the whole organization and are more analogous to a program. A
worldwide community is at the heart of being scientifically effective and special attention has to
be given to getting others involved with the US and vice versa. On principle we do not plan to
shift that one to the direct category. You might note that it is mostly the administrative support
of these activities that is included in indirect costs. Items like travel grants are paid from
endowed funds

         costs
Unsu~~opted
Unallowable Costs

We continue to take exception to what appears to be the arbitrary exclusion of $68,449 of
expenses reported to have been supported only by credit card bill. Essentially dl of these
expenses are recorded with detailed receipts when available and contemporaneous notes on the
receipts as required.

Excessive and Unreasonable Costs

Our definitions of this category are different from yours; however, we will put them into direct
costs in hture rather than fight about it. We must try to keep things simple enough to be able to
continue to accept government grants and that means keeping accounting exceptions to a
minimum.

Misclmified Costs
Expenses not Credited with OffsettinaRevenues

We recognize these errors and accept responsibility for them.



Adequate Internal Controls Not a Priority

Seprenation o f Duties
We are reviewing accounting, financial, and reporting functions within AGU in order to identify
ways to improve efficiency and effectiveness and to strengthen internal controls.
                                                                            -
Training in Federal Requirements
In response to the NSF audit, several AGU staff members underwent training in Federal cost
principles (OMB Circular A- 122) and administrative requirements for grants ( O m Circular A-
110). Policies and procedures have been developed for cost-sharing and for the quarterly review
of grant expenses. The Accounting Department is establishing a separate account number for
participant support costs incurred under federal awards so that budget and actual expenses can be
tracked more closely within the AGU accounting system.

Recommendations

I)     We take great exception to the findings and the recommendation in this area and request
       that at the very minimum the current approach to the cost recovery by AGU for START
       activities be accepted for the past, present and continuing activity related to that
       organization.

       We also feel that a more careful look needs to be made before the precise value of
       questioned direct costs is acceptable.

2)     Monthly reconciliations of the payroll bank account are being done and we will be
       strengthening of other methods for ensuring internal control. We do not plan to separate
       the payroll function from the HR department nor risk the compromise of any individual' s
       privacy by spreading salary and wage information hrther than is absolutely necessary.

3)     Procedures for sub-awards will continue to be upgraded to the extent possible given the
       circumstances of the award and the funds available. Some steps have already been taken.
4)   Measures to enswe the existing policy regarding the tracking of cost sharing is being
     implemented. We believe the current policy is sound.

     Participant support costs are not shifted without approval; the problem lies in the absence
     of a,specificaccount for tracking such expenditures and we have rectified that problem.

5)   We are working on the policies and procedures in all of these areas.

6)   Training of staff on Federal requirements has begun and will continue on a regular basis.

7)   We propose to withdraw the proposal based on 2002 information because it will not serve
     the interests of the government or of AGU well. It is too complex to use and is based on
     a year of transition. We would like to submit a new proposal baed on 2004 financial
     information that requests a single unified rate. We propose to use the standards suggested
     in this Report in preparing that request.
